APPENDIX

APPENDICES 1
APPENDIX A—Opinion of The North Carolina
Supreme Court (June 5, 2020) ................................ 1a
APPENDIX B—Opinion of The North Carolina Court
of Appeals (November 20, 2018) ............................ 15a
APPENDIX C—Memorandum of Judgment of The
Wake County District Court (August 4, 2016) …... 65a
APPENDIX D—Child Custody Order of The Wake
County District Court (December 9, 2016) ............ 68a
APPENDIX E—Child Custody Order of The Wake
County District Court (March 6, 2017) .................. 83a
APPENDIX F—N.C. Gen. Stat. § 50-13.5 ........... 102a
APPENDIX G—Listing of States Applying the
Judicial Best Interests Rule ……………............. 108a
APPENDIX H—Listing of States Applying the Actual
Harm Rule ………………………………………….. 111a
APPENDIX I—States Applying the Unfitness
Rule …………………………………………………...116a

1

Minors names have been redacted to initials.

1a
APPENDIX A
OPINION OF THE NORTH CAROLINA
SUPREME COURT (June 5, 2020)
IN THE SUPREME COURT OF NORTH
CAROLINA
___________________________

JOHN TYLER ROUTTEN,
v.
KELLY GEORGENE ROUTTEN,
___________________________

No. 455A18

___________________________

Appeal pursuant to N.C.G.S. § 7A-30(2) from
the decision of a divided panel of the Court of Appeals,
Routten v. Routten, 262 N.C. App. 436, 822 S.E.2d 436
(2018), affirming an order entered by Judge Michael
J. Denning on 6 March 2017 in District Court, Wake
County. Heard in the Supreme Court on 6 November
2019.
Jackson Family Law, by Jill Schnabel Jackson,
for plaintiff-appellant.
Stam Law Firm, by R. Daniel Gibson, for
defendant-appellee.

2a
MORGAN, Justice.
In this appeal involving a child custody dispute
between two biological parents, we hold that a trial
court may grant full custody to one parent and deny
visitation to the other parent, so long as the trial court
has entered a written finding of fact that such a
custody award is in the best interests of the children,
without the need to have determined that the parent
who has been denied visitation is a person deemed by
the trial court to be unfit to spend time with the
children. We therefore reverse the majority decision
of the Court of Appeals to the extent that it vacated
the trial court’s order regarding custody and the lower
appellate court remanded the matter for further
proceedings.
Factual Background and Procedural History
Plaintiff John Tyler Routten and defendant Kelly
Georgene Routten were married on 23 March 2002
and became separated on 26 July 2014. This appeal
focuses on the custodial arrangement for the two
children who were born to the parties during the
marriage: a daughter who was born on 2 June 2004
and a son who was born on 17 July 2012.
On 4 August 2014, plaintiff-father filed a
complaint against defendant-mother for child custody
and equitable distribution, along with a motion for
defendant to submit to psychiatric evaluation and
psychological testing. The parties entered into a
consent order on 13 August 2014, in which they
agreed to a temporary child custody schedule. After

3a
defendant filed her answer to plaintiff’s complaint on
6 October 2014, asserting several counterclaims, the
parties engaged in mediation.
On 24 September 2015, at the conclusion of the
court proceeding on the parties’ claims for permanent
child custody support, and on defendant’s
counterclaims for alimony and attorney fees, the trial
court
directed
defendant
to
undergo
a
neuropsychological evaluation prior to a decision on
permanent child custody. On 21 December 2015, the
trial court entered a custody and child support order
which established a temporary custody schedule,
ordered defendant to “take whatever steps are
necessary to obtain a complete neuropsychological
evaluation no later than June 15, 2016,” and
scheduled a review hearing on 5 April 2016 and a
“subsequent hearing for review of custody and entry
of final/permanent orders in July or August of 2016.”
On 5 April 2016, the scheduled date for the review
hearing set by the 21 December 2015 order, the trial
court conducted an in-chambers conference on the
status of the neuropsychological evaluation in which
defendant had been ordered to participate. On 27
April 2016, the trial court entered an order scheduling
a hearing on 4 August 2016 to address the results of
defendant’s neuropsychological evaluation and other
matters relating to the best interests of the children.
The trial court further directed defendant to obtain
the neuropsychological evaluation no later than 15
June 2016 and to submit any resulting written report
to plaintiff’s counsel at least ten days before the
scheduled 4 August 2016 hearing. On 29 July 2016,

4a
defendant moved for a continuance and a protective
order, stating that she had complied with the orders
to obtain a neuropsychological evaluation. She did not
submit any written report resulting from the
evaluation to plaintiff’s counsel, as directed by the
trial court’s order of 27 April 2016.
At the final custody hearing on 4 August 2016,
defendant admitted that although Duke Clinical
Neuropsychology
Service
had
performed
a
neuropsychological evaluation of defendant on 21
April 2016, she had not disclosed this fact to plaintiff
prior to the 4 August 2016 hearing. Defendant further
admitted that earlier she had informed plaintiff that
Pinehurst Neuropsychology, rather than Duke, would
perform the evaluation and had implied in the
motions that she filed in the months of June and July
of 2016 that her neuropsychological evaluation had
not yet been performed. On 9 December 2016, the trial
court entered a permanent child custody order
awarding sole physical custody of the children to
plaintiff. The trial court also entered an order for
alimony and attorney fees.
Defendant subsequently filed pro se motions for a
new trial and for relief from judgment pursuant to
Rules 59 and 60 of the North Carolina Rules of Civil
Procedure. She also obtained the issuance of
numerous subpoenas on her own behalf. As a result of
these filings, plaintiff sought and received a
temporary restraining order on 13 December 2016. At
the succeeding hearing on plaintiff’s preliminary
injunction motion on 3 January 2017, the trial court
ordered defendant to calendar for hearing her Rule 59

5a
and Rule 60 pro se motions within ten days.
Defendant scheduled her motions to be heard on 1
March 2017; and on 20 February 2017, counsel filed
amended Rule 59 and Rule 60 motions on her behalf.
On 6 March 2017, the trial court entered an amended
permanent child custody order which included
additional findings of fact and conclusions of law. The
amended permanent child custody order included
provisions which granted sole legal custody and
physical custody of the children to plaintiff, denied
visitation by defendant, authorized plaintiff to
“permit custodial time between the children and
[d]efendant within his sole discretion,” and allowed
defendant to have telephone conversations with the
children twice each week. On 4 April 2017, defendant
filed a notice of appeal of the 6 March 2017 amended
permanent child custody order “and all related
interim or temporary orders and ancillary orders.”
While defendant brought forward numerous
arguments in her appeal to the Court of Appeals,
there are two issues presented to us for resolution
after the rendered decision of the lower appellate
court: (1) whether the trial court erred in denying
defendant’s ability to have visitation with her
children as the non-custodial parent without a
determination that she was unfit to have visitation
with them, and (2) whether the trial court erred in
authorizing plaintiff, as the custodial parent, to
exercise discretion in allowing visitation between
defendant and the children. See generally Routten v.
Routten, 262 N.C. App. 436, 822 S.E.2d 436 (2018).

6a
In determining these two issues, the Court of
Appeals majority agreed with defendant’s contention
that “the trial court violated her constitutionally
protected interest as parent by awarding sole legal
and physical custody of the children to Plaintiff
without making a finding that she was unfit or had
acted inconsistently with her constitutionally
protected status as parent.” Id. at 445, 822 S.E. 2d at
443. It also held that “[t]he trial court erred and
abused its discretion by delegating its authority to
determine Defendant’s visitation rights.” Id. at 444,
822 S.E. 2d at 442–443. On these issues, the
dissenting Court of Appeals judge disagreed with the
majority’s view on the basis that the analysis was
both in conflict with the precedent of this Court and
was reached in reliance upon a prior Court of Appeals
decision, Moore v. Moore, 160 N.C. App. 569, 587
S.E.2d 74 (2003), that had been expressly disavowed
by an earlier panel of the Court of Appeals and
therefore violated our directive in In re Civil Penalty,
324 N.C. 373, 384, 379 S.E.2d 30, 37 (1989) (“Where a
panel of the Court of Appeals has decided the same
issue, albeit in a different case, a subsequent panel of
the same court is bound by that precedent, unless it
has been overturned by a higher court.”). Routten, 262
N.C. App. at 458–65, 822 S.E.2d at 451–55 (Inman, J.,
dissenting in part).
On 27 December 2018, defendant filed a notice of
appeal in this Court on the basis of her contention
that this case involved a substantial constitutional
question and that this matter warranted the exercise
of our discretionary review. Each of these filings was

7a
dismissed ex mero motu by this Court in orders
entered on 14 August 2019. On 3 January 2019,
plaintiff filed a notice of appeal as a matter of right
based upon the Court of Appeals dissent.
Analysis
The resolution of the issue regarding the trial
court’s decision to deny visitation by defendant with
the children without a determination that she was
unfit to have visitation with them is governed by
North Carolina General Statutes Section 50-13.5(i).
As between two parents seeking custody and
visitation of their children, the cited statutory
provision states, in pertinent part, that
the trial judge, prior to denying a parent
the right of reasonable visitation, shall
make a written finding of fact that the
parent being denied visitation rights is
an unfit person to visit the child or that
such visitation rights are not in the best
interest of the child.
N.C.G.S. § 50-13.5(i) (2019) (emphasis added). A plain
reading of this subsection reveals two points critical
to the resolution of the issues in the matter here. First,
this provision contemplates the authorized prospect
of the denial to a parent of a right to visitation. Second,
that such a denial is permitted upon a trial court’s
written finding of fact that the parent being denied
visitation is deemed unfit to visit the child or that
visitation would not be in the child’s best interests.
The unequivocal and clear meaning of the statute

8a
identifies two different circumstances in which a
parent can be denied visitation, and the disjunctive
term “or” in N.C.G.S. § 50-13.5(i) establishes that
either of the circumstances is sufficient to justify the
trial judge’s decision to deny visitation. See, e.g.,
Burgess v. Your House of Raleigh, Inc., 326 N.C. 205,
209, 388 S.E.2d 134, 136 (1990) (“Where the language
of a statute is clear and unambiguous, there is no
room for judicial construction and the courts must
construe the statute using its plain meaning.”)
(citation omitted). Thus, contrary to the majority view
and consistent with the dissenting view in the lower
appellate court, in a dispute between two parents if
the trial court determines that visitation with one
parent is not in a child’s best interests, then the trial
court is authorized to deny visitation to said parent
without a requirement to find the existence of the
alternative circumstance that the parent in question
is unfit. See Carolina Power & Light Co. v. City of
Asheville, 358 N.C. 512, 519, 597 S.E.2d 717 722 (2004)
(citing Grassy Creek Neighborhood Alliance, Inc. v.
City of Winston-Salem, 142 N.C. App. 290, 297–98,
542 S.E.2d 296, 301 (2001) for the proposition “that
the natural and ordinary meaning of the disjunctive
‘or’ permits compliance with either condition”). In the
present case, there is no dispute that the trial court
found that visitation with defendant would not be in
the best interests of the children. Pursuant to
N.C.G.S. § 50-13.5(i), this was a proper standard to
apply in resolving the custody and visitation matters
before the trial court. See, e.g., Adams v. Tessener, 354
N.C. 57, 61, 550 S.E.2d 499, 502 (2001) (“In a custody
proceeding between two natural parents (including

9a
biological or adoptive parents), or between two parties
who are not natural parents, the trial court must
determine custody based on the ‘best interest of the
child’ test.”).
The majority decision of the Court of Appeals
in this matter went astray due to its reliance upon
Moore. The Moore case, as accurately recounted by
the dissenting judge, “held that in a custody dispute
between a child’s natural or adoptive parents ‘absent
a finding that parents (i) are unfit or (ii) have
neglected the welfare of their children, the
constitutionally protected paramount right of parents
to custody, care, and control of their children must
prevail.’ ” Routten, 262 N.C. App. at 458, 822 S.E.2d
at 451 (citation omitted). The dissent notes that the
Court of Appeals in Moore excerpted this language
from our opinion in Petersen v. Rogers, 337 N.C. 397,
403–04, 445 S.E.2d 901, 905 (1994), “which
established a constitutionally based presumption
favoring a parent in a custody dispute with a nonparent,” as controlling authority for the outcome in
Moore. Routten, 262 N.C. App. at 459, 822 S.E.2d at
451. However, the Moore court misapplied our
decision in Petersen. The Petersen case established a
presumption favoring a parent in a custody dispute
with a non-parent; Moore wrongly employed this
presumption in a custody dispute between two
parents. This presumption is not implicated in
disputes between parents because in such cases, a
trial court must determine custody between two
parties who each have, by virtue of their identical
statuses as parents, the same “constitutionally-

10a
protected paramount right to custody, care, and
control of their children.” Petersen, 337 N.C. at 400,
445 S.E.2d at 903. Therefore, no constitutionally
based presumption favors custody for one parent or
the other nor bars the award of full custody to one
parent without visitation to the other. The dissent
here went on to astutely analyze the snarl that was
created by the misapplication of our Petersen
presumption by the Court of Appeals in Moore, and
the error that this introduced into the majority
decision of the lower appellate court in the present
case:
But unlike Moore, Petersen
involved a custody conflict between
parents and non-parents. Moore did not
acknowledge that factual distinction or
provide any analysis to support
extending the Petersen holding to a
dispute between two parents. Nor did
Moore acknowledge controlling Supreme
Court precedent expressly holding that
Petersen does not apply to custody
disputes between two parents, such as
the case we decide today [of Routten v.
Routten].
Routten, 262 N.C. App at 459, 822 S.E.2d at 451
(citation omitted).
Shortly before the Court of Appeals issued its
decision in Moore, we recognized the crucial
distinction regarding a custody dispute between a
parent and a non-parent and a custody dispute

11a
between two parents. In Owenby v. Young, the
parents of two children had divorced, and primary
custody had been awarded to the mother with
visitation to the father. 357 N.C. 142, 142, 579 S.E.2d
264, 265 (2003). Several years later, the mother was
killed in a plane crash. After this occurrence, the
children resided with their father for several weeks
before the children’s maternal grandmother sought
primary custody of them, contending that the father
was not a fit and proper person to have the care,
custody, and control of the children as a result of his
alcohol abuse. Id. at 143, 579 S.E.2d at 265. In
determining Owenby, we acknowledged the Petersen
presumption and reaffirmed that “unless a natural
parent’s conduct has been inconsistent with his or her
constitutionally protected status, application of the
‘best interest of the child’ standard in a custody
dispute with a nonparent offends the Due Process
Clause of the United States Constitution.” Id. at 145,
579 S.E.2d at 266–67 (citations omitted). This Court
went on to observe, however, that this “protected right
is irrelevant in a custody proceeding between two
natural parents, whether biological or adoptive, or
between two parties who are not natural parents. In
such instances, the trial court must determine
custody using the ‘best interest of the child’ test.” Id.
at 145, 579 S.E.2d at 267 (citation omitted).
Although our decisions in Petersen and Owenby
both preceded the decision of the Court of Appeals in
Moore, with both Petersen and Owenby involving
custodial disputes between a parent and a non-parent
and being consistent with one another in the

12a
recognition of a constitutionally based presumption
favoring a parent in a custody dispute with a nonparent, nonetheless the result in Moore was
inconsistent with this line of cases in that the Court
of Appeals erroneously applied this presumption in a
custody dispute between two parents. The Court of
Appeals duplicates this mistake in the instant case
and compounds the error by misinterpreting the
disjunctive clause of N.C.G.S. § 50-13.5(i) to have
required the trial court here to find that defendant
was an unfit person to visit the children, when the
statute authorized the alternative ground found by
the trial court that such visitation was not in the best
interests of the children.
We therefore utilize this opportunity to
reiterate and to apply the principle which this Court
enunciated in Petersen that where parents are each
seeking custody of their children, each has a full and
equal “constitutionally-protected paramount right . . .
to custody, care, and control of their children” and
there exists no presumption regarding custody merely
on the basis of either party’s parental status. Petersen,
337 N.C. at 403–04, 445 S.E.2d at 905. Furthermore,
in light of statutory and case law, in a dispute
between two parents with equal parental rights, the
trial court must apply the “best interest of the child”
standard to determine custody and visitation
questions, see Adams, 354 N.C. at 61, 550 S.E.2d at
502, and if the court determines that one parent
should not be awarded reasonable visitation, the
court “shall make a written finding of fact that the
parent being denied visitation rights is an unfit

13a
person to visit the child or that such visitation rights
are not in the best interest of the child.” N.C.G.S. § 5013.5(i) (emphasis added). We also expressly overrule
Moore v. Moore, and any other Court of Appeals
decisions purporting to apply the Petersen
presumption in custody disputes between two parents.
As to the second issue which we consider upon
this review, the lower appellate court’s majority
vacated the portion of the trial court’s conclusion of
law stating that “[p]laintiff may permit custodial time
between the children and [d]efendant within his sole
discretion, taking into account the recommendations
of [the parties’ daughter’s] counselor as to frequency,
location, duration, and any other restrictions deemed
appropriate by the counselor for permitting visitation
between [the parties’ daughter] and [defendant].” See
Routten, 262 N.C. App at, 443–44, 822 S.E.2d at 442.
This determination by the Court of Appeals majority
was based upon the holdings in two Court of Appeals
decisions, each of which held that “the award of
visitation rights is a judicial function which may not
be delegated to the custodial parent[.]” Brewington v.
Serrato, 77 N.C. App. 726, 733, 336 S.E.2d 444, 449
(1985). (citing In re Stancil, 10 N.C. App. 545, 552,
179 S.E.2d 844, 849 (1971)).
Here we agree with the view of the dissent, that
in light of the trial court’s authority to deny any
visitation to defendant pursuant to N.C.G.S. § 5013.5(i), any delegation of discretion to plaintiff to
allow some visitation “is mere surplusage, albeit
admittedly confusing.” Routten, 262 N.C. App. at 465,
822 S.E.2d at 455. The trial court had already

14a
determined that it was not in the children’s best
interests to have visitation with defendant. Although
it is curious that the trial court would afford an
opportunity for defendant to have visitation with the
children at the discretion of plaintiff after denying
visitation rights to her, nonetheless we choose to
interpret the trial court’s openness to the potential
prospect of defendant’s ability to see her children as a
humane accommodation rather than as an error of
law.
Conclusion
For the reasons cited above, we reverse those
portions of the Court of Appeals decision that were
raised in this appeal based upon the dissenting
opinion of the lower appellate court. We also reverse
those portions of the Court of Appeals decision which
would have vacated the custody award and remanded
for further proceedings.
REVERSED.

15a
APPENDIX B
OPINION OF THE NORTH CAROLINA COURT
OF APPEALS (NOVEMBER 20, 2018)
COURT OF APPEALS OF NORTH CAROLINA
___________________________

Wake County, No. 14 CVD 10295
JOHN TYLER ROUTTEN, Plaintiff,
v.
KELLY GEORGENE ROUTTEN, Defendant.
___________________________

Case No. COA17-1360
Opinion filed November 20, 2018
An appeal from the Wake County District Court
___________________________

Appeal by defendant from orders entered by
Judge Michael Denning in Wake County District
Court. Heard in the Court of Appeals 20 September
2018.
Jill Schnabel Jackson for plaintiff-appellee.
R. Daniel Gibson for defendant-appellant.
TYSON, Judge.
Kelly Georgene Routten (“Defendant”) appeals
from orders entered on 4 April 2017 and several other

16a
interim and temporary orders. We affirm in part,
vacate in part, and remand.
I. Background
John Tyler Routten (“Plaintiff”) and Defendant
were married on 23 March 2002 and separated from
each other on 26 July 2014. Their union produced two
children, a daughter and a son. The daughter, “H.,”
was born 2 June 2004. The son, “B.,” was born 17 July
2012.
On 21 July 2014, Plaintiff allegedly assaulted
Defendant by pushing her onto the floor of their home.
Defendant was granted an ex parte domestic violence
protective order (“DVPO”) against Plaintiff and was
granted temporary custody of the parties’ children on
25 July 2014. On 4 August 2014, Plaintiff filed a
complaint (“the Complaint”) against Defendant for
child custody, equitable distribution, and a motion for
psychiatric evaluation and psychological testing.
On 13 August 2014, Defendant voluntarily
dismissed the DVPO. That same day the parties
entered into a memorandum of judgment/order,
which established a temporary custody schedule for
the children and a temporary child support and postseparation
support
arrangement.
Defendant
purportedly did not receive a copy of the Complaint
until after she had dismissed the DVPO and signed
the memorandum of judgment/order. Defendant filed
her answer to the Complaint on 6 October 2014 and
asserted several counterclaims, including claims for
alimony, child custody, child support, and attorney’s

17a
fees. The parties participated in mediation and the
trial court entered an equitable distribution order by
consent of the parties on 29 April 2015.
On 21 September 2015, trial began on the
parties’ claims for permanent child custody,
permanent
child
support,
and
Defendant’s
counterclaims for alimony and attorney’s fees. At the
conclusion of the trial on 24 September, the trial judge
indicated Defendant needed to submit to a
neuropsychological evaluation before he could decide
permanent child custody.
On 21 December 2015, the trial court entered a
custody and child support order, which established a
temporary custody arrangement and ordered
Defendant to “take whatever steps are necessary to
obtain a complete neuropsychological evaluation no
later than June 15, 2016.” The 21 December 2015
order also provided that “[t]his case shall be set for a
3-hour custody review hearing on April 5, 2016” and
“for a 6.5-hour subsequent hearing for review of
custody and entry of final/permanent orders in July
or August of 2016, once those calendars are available
for scheduling trial dates.” On 5 April 2016, the trial
court conducted an in-chambers conference with the
parties’ counsel to determine the status of
Defendant’s neuropsychological evaluation.
On 27 April 2016, the trial court entered an
order scheduling a three-hour hearing on 4 August
2018 to hear evidence relating to Defendant’s
neuropsychological evaluation and evidence relating

18a
to the best interests of the children. The 27 April 2016
order also decreed:
2. Defendant shall take whatever steps
are necessary to obtain a complete
neuropsychological evaluation no later
than June 15, 2016. . . .
3. Defendant shall notify Plaintiff’s
counsel in writing no later than May 15,
2016, of the name and address of the
provider who shall perform the
neuropsychological
evaluation
of
Defendant.
4. Any written report resulting from the
neuropsychological evaluation shall be
produced to Plaintiff’s counsel no later
than ten (10) days prior to August 4th,
2016. . . .
On 29 July 2016, Defendant filed a motion for
a continuance and protective order in which she
alleged that she had complied with the trial court’s
prior orders to obtain a neuropsychological evaluation.
Defendant’s 29 July 2016 motion was mailed to
Plaintiff’s counsel five days prior to the scheduled 4
August 2016 final custody hearing. The motion did
not contain the date the neuropsychological
evaluation was performed or the name and address of
the provider who had performed the evaluation.
The final custody hearing took place on 4
August 2016. At the outset of the hearing,

19a
Defendant’s trial counsel disclosed for the first time
that Duke Clinical Neuropsychology Service had
performed a neuropsychological evaluation of
Defendant on 21 April 2016. During the hearing,
Defendant admitted: (1) she had not disclosed to
Plaintiff’s counsel the 21 April 2016 evaluation by
Duke prior to the 4 August 2016 hearing; (2) she had
notified
Plaintiff’s
counsel
that
Pinehurst
Neuropsychology, not Duke, would perform the
evaluation; and (3) she had filed motions in June and
July 2016 suggesting that a neuropsychological
evaluation had not yet been performed.
At the conclusion of the hearing, the trial court
transferred sole physical custody of the children
to Plaintiff pursuant to a memorandum of order/
judgment until a complete permanent custody order
could be drafted and entered. The trial court entered
a permanent child custody order on 9 December 2016
and an order for alimony and attorney’s fees. On 9 and
13 December 2016, Defendant filed pro se motions for
a new trial and relief from judgment pursuant to
Rules 59 and 60 of the North Carolina Rules of Civil
Procedure.
Following a series of subpoenas filed by
Defendant following the trial court’s final custody
hearing on 4 August 2016, Plaintiff filed a motion for
a temporary restraining order and preliminary
injunction on 13 December 2016. Plaintiff’s motion
asserted, in part:
17. The subpoenas issued by Defendant
seek the production of documents related

20a
to child custody issues. Child custody has
been fully litigated and there are no
hearings scheduled (or motions pending)
that relate to child custody.
18. Defendant is representing herself pro
se and appears to be using the subpoena
process through the clerk’s office to
(improperly) attempt to continue
litigating a claim that has been fully and
finally litigated.
The trial court granted Plaintiff a temporary
restraining order on 13 December 2016. The trial
court conducted a hearing on Plaintiff’s preliminary
injunction motion on 3 January 2017. At the hearing,
the trial court ordered Defendant to calendar her
pending Rule 59 and 60 motions within ten days for
the next available court dates. Defendant calendared
the hearing for the Rule 59 and 60 motions for 1
March 2017. On 25 January 2017, the trial court
entered an order granting Plaintiff’s preliminary
injunction. The trial court’s order decreed, in relevant
part: “Defendant is hereby restrained and prohibited
from requesting issuance of a subpoena in this action
by the Wake County Clerk of Superior Court or by any
court personnel other than the assigned family court
judge.”
On 20 February 2017, Defendant filed
amended Rule 59 and Rule 60 motions. The trial court
concluded Defendant was entitled to the entry of a
new order containing additional findings of fact and
conclusions of law. On 6 March 2017, the trial court

21a
entered an amended permanent child custody order
(“the Amended Order”). The Amended Order, in part,
granted Plaintiff sole legal custody and physical
custody, denied Defendant visitation with the
children, but allowed Plaintiff to “permit custodial
time between the children and Defendant within his
sole discretion” and allowed Defendant two telephone
calls per week with the children.
Defendant appeals the trial court’s Amended
Order and several other “related interim or
temporary orders and ancillary orders.”
We note Defendant initially chose to prosecute
her appeal pro se. This Court provided the
opportunity for this case to be included in the North
Carolina Appellate Pro Bono Program. Following this
Court’s inquiry, Defendant accepted representation
by a pro bono attorney under this Program. Upon
Defendant’s acceptance of pro bono representation,
this Court ordered the parties to file supplemental
briefs by order dated 23 August 2018.
II. Jurisdiction
Jurisdiction lies in this Court over an appeal of
a final judgment regarding child custody in a civil
district court action pursuant to N.C. Gen. Stat.
§§ 7A-27(b)(2) (2017) and 50-19.1 (2017).
III. Standard of Review
In a child custody case, the standard of review
is “whether there was competent evidence to support
the trial court’s findings of fact[.]” Barker v. Barker,

22a
228 N.C. App. 362, 364, 745 S.E.2d 910, 912 (2013)
(quoting Shear v. Stevens Bldg. Co., 107 N.C. App.
154, 160, 418 S.E.2d 841, 845 (1992)). “[T]he trial
court’s findings of fact are conclusive on appeal if
supported by substantial evidence, even if there is
sufficient evidence to support contrary findings.
‘Substantial evidence is such relevant evidence as a
reasonable mind might accept as adequate to support
a conclusion.’ ” Peters v. Pennington, 210 N.C. App. 1,
12-13, 707 S.E.2d 724, 733 (2011) (quoting State v.
Smith, 300 N.C. 71, 78-79, 265 S.E.2d 164, 169 (1980))
(citations omitted). “Whether [the trial court’s]
findings of fact support [its] conclusions of law is
reviewable de novo.” Hall v. Hall, 188 N.C. App. 527,
530, 655 S.E.2d 901, 904 (2008) (alteration in original)
(citation omitted).
“Absent an abuse of discretion, the trial court’s
decision in matters of child custody should not be
upset on appeal.” Everette v. Collins, 176 N.C. App.
168, 171, 625 S.E.2d 796, 798 (2006). “Abuse of
discretion results where the court’s ruling is
manifestly unsupported by reason or is so arbitrary
that it could not have been the result of a reasoned
decision.” Davis v. Kelly, 147 N.C. App. 102, 106, 554
S.E.2d 402, 405 (2001) (citation omitted).
IV. Issues
On appeal, Defendant contends: (1) the trial
court abused its discretion by ordering Defendant to
submit to a neuropsychological evaluation; (2) the
trial court abused its discretion by delegating its
authority to determine Defendant’s visitation rights

23a
to Plaintiff; (3) the trial court infringed Defendant’s
constitutionally protected parental rights by
awarding sole custody and visitation rights to
Plaintiff; (4) the trial court violated N.C. Gen. Stat.
§ 50-13.2(e)(3) (2017) by only granting Defendant
telephone visitation; (5) the trial court entered
numerous findings not supported by competent
evidence; (6) the trial court infringed Defendant’s
procedural due process rights; (7) the trial court
abused its discretion in calculating the amount of
alimony; (8) the trial court abused its discretion in
denying her claim for attorney’s fees; and (9) the trial
court abused its discretion with respect to her
originally filed Rule 59 motion and three contempt
motions at a hearing on 1 March 2017.
V. Analysis
A. Neuropsychological Evaluation
Defendant argues the trial court exceeded its
authority under Rule 35 of the North Carolina Rules
of Civil Procedure by ordering her to submit to a
neuropsychological evaluation by a non-physician.
Rule 35 states that a court “may order [a] party to
submit to a physical or mental examination by a
physician” when that party’s physical or mental
condition is in controversy. N.C. Gen. Stat. § 1A-1,
Rule 35 (2017). In Defendant’s pro se briefs, she does
not refer to a specific order she asserts was
erroneously entered. In Defendant’s supplemental
pro bono brief, she specifically argues the trial court
erred, or abused its discretion, by entering an order

24a
on 3 October 2014 requiring her to submit to an
examination by a neuropsychologist.
The trial court’s 3 October 2014 order required
both parties to submit to psychological, not
neuropsychological, evaluations by Dr. KuzyszynJones. Defendant did not include the 3 October 2014
order in her notice of appeal listing the various orders
of the trial court she appealed from. “Proper notice of
appeal is a jurisdiction requirement that may not be
waived.” Chee v. Estes, 117 N.C. App. 450, 452, 451
S.E.2d 349, 350 (1994). “[T]he appellate court obtains
jurisdiction only over the ruling specifically
designated in the notice of appeal as the ones from
which the appeal is being taken.” Id. Defendant’s
arguments concerning the requirement of the 3
October 2014 order to obtain a psychological
evaluation by Dr. Kuzyszyn-Jones are waived and
dismissed. See id.; N.C. R. App. P. 3(d).
B. Father’s Discretion over Visitation
Defendant also argues the trial court violated
the statute and abused its discretion by granting
Plaintiff the sole authority to “permit custodial time
between the children and Defendant” in the Amended
Order. Under N.C. Gen. Stat. S 50-13.10), "custody"
includes "custody or visitation or both." N.C. Gen.
Stat. § 50-13.1(a) (2017).
The trial court’s Amended Order concluded “It
is not in the children’s best interests to have visitation
with Defendant.” The Amended Order then provides:

25a
2. Physical Custody. The minor children
shall reside with Plaintiff. Plaintiff may
permit custodial time between the
children and Defendant within his sole
discretion, taking into account the
recommendations of [H.’s] counselor as
to frequency, location, duration, and any
other restrictions deemed appropriate by
the counselor for permitting visitation
between [H.] and [Defendant]. (Emphasis
supplied).
Defendant cites In re Stancil, 10 N.C. App. 545,
179 S.E.2d 844 (1971), in support of her argument.
Stancil involved a custody dispute between a child’s
mother and the paternal grandmother. Id. at 546-47,
179 S.E.2d at 845-46. In the trial court’s custody
award to the grandmother, it granted the
grandmother “the right to determine the times, places
and conditions under which she could visit with [the
child].” Id. at 550, 179 S.E.2d at 848. This Court
stated:
When the question of visitation rights of
a parent arises, the court should
determine from the evidence presented
whether the parent by some conduct has
forfeited the right or whether the
exercise of the right would be
detrimental to the best interest and
welfare of the child. If the court finds
that the parent has by conduct forfeited
the right or if the court finds that the
exercise of the right would be detrimental

26a
to the best interest and welfare of the
child, the court may, in its discretion,
deny a parent the right of visitation with,
or access to, his or her child; but the court
may not delegate this authority to the
custodian.
Id. at 552, 179 S.E.2d at 849 (emphasis supplied).
Here, although the trial court had determined,
without finding Defendant had forfeited her parental
visitation rights, that it was “not in the children’s best
interests to have visitation with Defendant.” The trial
court contradicted its finding and conclusion, the
above rule stated in Stancil, and delegated its judicial
authority to Plaintiff to determine Defendant’s
visitation. As with the trial court in Stancil, the trial
court delegated the determination of Defendant’s
visitation with her children to Plaintiff, at “his sole
discretion.” The trial court erred and abused its
discretion by delegating the determination of
Defendant’s visitation rights with her children to
Plaintiff. Id. The trial court cannot delegate its
judicial authority to award or deny Defendant’s
visitation rights to Plaintiff or a third-party. See id.;
Brewington v. Serrato, 77 N.C. App. 726, 733, 336
S.E.2d 444, 449 (1985) (“[T]he award of visitation
rights is a judicial function, which the trial court may
not delegate to a third-party” (internal quotation
marks and citation omitted)).
The decretal portion of the Amended Order is
vacated and the matter remanded for the trial court
to determine an appropriate custodial and visitation
schedule consistent with this Court’s opinion in

27a
Stancil. See Stancil, 10 N.C. App. at 552, 179 S.E.2d
at 849.
C. Electronic Visitation
Defendant also argues the trial court abused its
discretion by allowing her only electronic “visitation,”
specifically, two telephone calls per week with the
children. Defendant raises her electronic visitation
arguments for the first time on appeal. Based upon
our holding to vacate the custodial and visitation
schedule from the Amended Order and remand for
additional findings and conclusions, it is unnecessary
to address the merits of Defendant’s arguments
concerning electronic visitation.
However, the trial court is instructed on
remand that: “electronic communication with a minor
child may be used to supplement visitation with the
child. Electronic communication may not be used as a
replacement or substitution for custody or visitation.”
N.C. Gen. Stat. § 50-13.2(e) (2017) (emphasis
supplied).
“Electronic communication” is defined as
“contact, other than face-to-face contact, facilitated by
electronic means, such as by telephone, electronic
mail, instant messaging, video teleconferencing,
wired or wireless technologies by Internet, or other
medium of communication.” Id. If on remand, the trial
court does not determine Defendant is unfit or
engaged in conduct inconsistent with her parental
rights, the trial court may only order electronic
visitation as a supplement to Defendant’s visitation

28a
rights and not as a replacement for Defendant’s
visitation rights. See id.; In re T.R.T., 225 N.C. App.
567, 573-74, 737 S.E.2d 823, 828 (2013).
D. Constitutionally Protected Status as Parent
Defendant contends the trial court violated her
constitutionally protected interest as parent by
awarding sole legal and physical custody of the
children to Plaintiff without making a finding that
she was unfit or had acted inconsistently with her
constitutionally protected status as parent. We agree.
The Amended Order purported to deny
Defendant all custody and visitation with her
children, effectively terminating her parental rights.
The Supreme Court of North Carolina held in
Owenby v. Young, that:
[T]he Due Process Clause of the
Fourteenth Amendment ensures that
the government does not impermissibly
infringe upon a natural parent’s
paramount right to custody solely to
obtain a better result for the child.
[Adams v. Tessener, 354 N.C. 57, 62, 550
S.E.2d 499, 503 (2001) (citing Troxel v.
Granville, 530 U.S. 57, 72-73, 147 L. Ed.
2d 49, 61 (2000))]. Until, and unless, the
movant establishes by clear and
convincing evidence that a natural
parent’s behavior, viewed cumulatively,
has been inconsistent with his or her
protected status, the “best interest of the

29a
child” test is simply not implicated. In
other words, the trial court may employ
the “best interest of the child” test only
when the movant first shows, by clear
and convincing evidence, that the
natural parent has forfeited his or her
constitutionally protected status.
357 N.C. 142, 148, 579 S.E.2d 264, 268 (2003). Our
Supreme Court also recognized in Price v. Howard,
that:
A natural parent’s constitutionally
protected paramount interest in the
companionship, custody, care, and
control of his or her child is a counterpart
of the parental responsibilities the
parent has assumed and is based on a
presumption that he or she will act in the
best interest of the child.
346 N.C. 68, 79, 484 S.E.2d 528, 534 (1997) (citations
omitted). Each parent’s constitutional rights are
equal and individually protected. See id.; Quilloin v.
Walcott, 434 U.. 246, 255, 54 L. Ed. 2d 511, 519 (1978)
(“We have recognized on numerous occasions that the
relationship between parent and child is
constitutionally protected.”).
Before denying a parent all custodial and
visitation rights with his or her children, the trial
court: (1) must first make a written finding that the
parent was unfit or had engaged in conduct
inconsistent with his protected status as a parent,
before applying the best interests of the child test; and

30a
(2) make these findings based upon clear, cogent, and
convincing evidence. Moore v. Moore, 160 N.C. App.
569, 573-74, 587 S.E.2d 74, 76 (2003); see Petersen v.
Rogers, 337 N.C. 397, 403-404, 445 S.E.2d 901, 905
(1994) (“[A]bsent a finding that parents (i) are unfit
or (ii) have neglected the welfare of their children, the
constitutionally-protected paramount right of parents
to custody, care, and control of their children must
prevail.”)
Based upon the trial court’s failure to find
Defendant is either unfit or has acted inconsistently
with her constitutionally protected status as a parent,
we vacate the trial court’s conclusions of law and
custody portions of its order. If on remand, the trial
court purports to deny Defendant all custody and
visitation or contact with her children, the trial court
must make the constitutionally required findings
based upon clear, cogent, and convincing evidence.
Owenby, 357 N.C. at 148, 579 S.E.2d at 268; Moore,
160 N.C. App. at 573-74, 584 S.E.2d at 76.
The dissenting opinion claims this holding
“diverges from established precedent” and “recognizes
a new constitutional right” citing Respess v. Respess,
232 N.C. App. 611, 754 S.E.2d 691 (2014). However,
the dissenting opinion either overlooks or disregards
the precedents set by the Supreme Court of the
United States, the Supreme Court of North Carolina,
and this Court, including In re Civil Penalty, 324 N.C.
373, 379 S.E.2d 30 (1989).

31a
E. In re Civil Penalty
The Supreme Court of North Carolina issued a
decision in Lanier, Comr. Of Insurance v. Vines, 274
N.C. 486, 164 S.E.2d 161 (1968). Subsequently, this
Court interpreted the holding of Lanier in N.C.
Private Protective Servs. Bd. v. Gray, Inc., 87 N.C.
App. 143, 360 S.E.2d 135 (1987). A later decision from
this Court found Gray had “contradict[ed] the express
language, rationale and result of Lanier,” and refused
to follow that decision. In re Civil Penalty, 92 N.C.
App. 1, 13-14, 373 S.E.2d 572, 579 (1988). Upon
review, the Supreme Court concluded “that the effect
of the majority’s decision . . . was to overrule Gray,”
and rejected this Court’s attempt to do so. In re Civil
Penalty, 324 N.C. at 384, 379 S.E.2d at 37. “Where a
panel of the Court of Appeals has decided the same
issue, albeit in a different case, a subsequent panel of
the same court is bound by that precedent, unless it
has been overturned by a higher court.” Id.
This sequence of events in In re Civil Penalty is
precisely what happened after this Court’s
unanimous decision in Moore. The Supreme Court
issued a decision in Owenby, holding that “[u]ntil, and
unless, the movant establishes by clear and
convincing evidence that a natural parent’s behavior,
viewed cumulatively, has been inconsistent with his
or her protected status, the ‘best interest of the child’
test is simply not implicated.” Owenby, 357 N.C. at
148, 579 S.E.2d at 268. The Court’s unanimous
decision in Moore, applied that precise result, holding:
“[o]nce conduct that is inconsistent with a parent’s
protected status is proven, the ‘best interest of the

32a
child’ test is applied.” 160 N.C. App. at 573, 587
S.E.2d at 76. No further appellate review of Moore
occurred.
As occurred In re Civil Penalty, “[s]everal pages
of the [Respess] opinion were devoted to a detailed
rejection of the [Moore] panel’s interpretation of
[Owenby].” In re Civil Penalty, 324 N.C. at 383-84, 379
S.E.2d at 36. The panel in Respess violated our
Supreme Court’s holding of In re Civil Penalty when
it refused to follow the unanimous binding ten-year
precedent set forth in Moore. See In re Civil Penalty,
324 N.C. at 384, 379 S.E.2d at 37; Respess, 232 N.C.
App. at 624-25, 754 S.E.2d at 700-01.
Further, numerous other precedential cases,
also decided prior to Respess, have cited to Moore for
the holding at issue, contrary to the assertion in the
dissenting opinion. See, e.g., Woodring v. Woodring,
227 N.C. App. 638, 644, 745 S.E.2d 13, 19 (2013) (“In
the absence of extraordinary circumstances, a parent
should not be denied the right of visitation.” (quoting
Moore, 160 N.C. App. at 573, 587 S.E.2d at 76));
Maxwell v. Maxwell, 212 N.C. App. 614, 622-23, 713
S.E.2d 489, 495 (2011) (“we reverse and remand this
matter for further findings of fact as to Plaintiff’s
fitness as a parent or the best interest of the minor
children” (citing Moore, 160 N.C. App. at 574, 587
S.E.2d at 77)); Slawek v. Slawek, No. COA09-1682,
2010 WL 3220668, at *6 n.4 (N.C Ct. App. Aug. 17,
2010) (unpublished) (“To declare a parent unfit for
visitation, there must be ‘clear, cogent, and
convincing evidence.’ ” (quoting Moore, 160 N.C. App.
at 573, 587 S.E.2d at 76)); Mooney v. Mooney, No.

33a
COA08-998, 2009 WL 1383395, at *5 (N.C. Ct. App.
May 19, 2009) (unpublished) (“A trial court may only
deny visitation under the ‘best interest’ prong of
N.C.G.S. § 50-13.5(i) ‘[o]nce conduct that is
inconsistent with a parent’s protected status is
proven.’ ” (quoting Moore, 160 N.C. App. at 573, 587
S.E.2d at 76)); In re E.T., No. COA05-752, 2006 WL
389731, at *3 (N.C. Ct. App. Feb. 21, 2006)
(unpublished) (“The trial judge, prior to denying a
parent the right of reasonable visitation, shall make
a written finding of fact that the parent being denied
visitation rights is an unfit person to visit the child or
that such visitation rights are not in the best interest
of the child.” (quoting Moore, 160 N.C. App. at 572,
587 S.E.2d at 76)); In re M.C., No. COA03-661, 2004
WL 2152188, at *4 (N.C. Ct. App. Sep. 21, 2004)
(unpublished) (“The trial court is required to make a
finding that a natural parent is unfit before denying
custody to that parent.” (citing Moore, 160 N.C. App.
569, 587 S.E.2d 74)); David N. v. Jason N., 164 N.C.
App. 687, 690, 596 S.E.2d 266, 268 (2004) (“The trial
court is required to make a finding that a natural
parent is unfit before denying custody to that parent.”
(citing Moore, 160 N.C. App. 569, 587 S.E.2d 74)),
rev'd on other grounds, 359 N.C. 303, 608 S.E.2d 751
(2005).
In Peters v. Pennington, this Court cited Moore,
as follows:
In Moore, this Court stated that the
prohibition of all contact with a natural
parent’s child was analogous to a
termination of parental rights. The

34a
Court reasoned that, in order to sustain
a ‘total prohibition of visitation or
contact’ based on the unfitness prong of
N.C. Gen. Stat. § 50-13.5(i), the trial
court must find unfitness based on the
clear, cogent, and convincing evidentiary
standard
that
is
applicable
in
termination of parental rights cases.
210 N.C. App. at 19, 707 S.E.2d at 737 (emphasis in
original) (citing Moore, 160 N.C. App at 573-74, 587
S.E.2d at 76-77))
Our Supreme Court has not overturned any of
this Court’s published opinions listed above,
including Moore, which protect the “constitutionallyprotected paramount right” of each individual parent
over the care, custody, and control of their children.
See Petersen, 337 N.C. at 403-404, 445 S.E.2d at 905.
The dissenting opinion does not address or
distinguish any of these binding precedents upon this
Court.
Were we to disregard each parent’s
individually protected constitutional right, the
following scenario may arise: an unmarried couple
conceives a child. The couple becomes estranged
before the child is born, and the father never knows
the mother was pregnant. Years later, after the child
is born, the father learns of his child’s existence and
seeks to have a relationship with the child. The father
files an action to seek custody or visitation with his
child. Under Respess, the trial court could then deny
the father any custody or visitation solely using the

35a
“best interests” test, without any findings of the
father’s unfitness or actions inconsistent with his
parental status. The application of the “best interests”
test under this scenario, without findings of unfitness
or actions inconsistent, would be wholly incompatible
with our precedents, which have recognized: “A
natural
parent’s
constitutionally
protected
paramount interest in the companionship, custody,
care, and control of his or her child[.]” Price, 346 N.C.
at 79, 484 S.E.2d at 534; see Quilloin, 434 U.S. at 255,
54 L. Ed. 2d at 519 (“the relationship between parent
and child is constitutionally protected”); Owenby, 357
N.C. at 148, 579 S.E.2d at 268; Moore, 160 N.C. App.
at 574, 587 S.E.2d at 77.
The dissenting opinion, and Respess, assert
this Court's holding in Moore was in conflict with
Owenby. Citing the precedents of the Supreme Court
of the United States and the Supreme Court of North
Carolina, this Court unanimously stated in Moore:
It is presumed that fit parents act in the
best interest of their children. Troxel,
530 U.S. at 69, 147 L. Ed. 2d at 59. A
parent’s right to a relationship with his
child is constitutionally protected. See
Quilloin v. Walcott, 434 U.S. 246, 255, 98
S. Ct. 549, 54 L. Ed. 2d 511, 519 (1978).
Once conduct that is inconsistent with a
parent’s protected status is proven, the
“best interest of the child” test is applied.

36a
Price v. Howard, 346 N.C. 68, 79, 484
S.E.2d 528, 534 (1997).
Moore, 160 N.C. App. at 573, 587 S.E.2d at 76.
This Court’s application of the rule regarding
each parent’s constitutionally protected individual
relationship of custody or visitation with her child in
this case and in Moore is fully consistent with binding
precedents and with our Supreme Court’s holding in
Owenby. “[T]he trial court may employ the ‘best
interest of the child’ test only when the movant first
shows, by clear and convincing evidence, that the
natural parent has forfeited his or her
constitutionally protected status.” Owenby, 357 N.C.
at 148, 579 S.E.2d at 268.
This opinion fully quotes and is consistent with
the holding in Owenby and does not “conspicuously
omit[]” any binding language therein, contraty to the
dissenting opinion’s assertion. See id.
F. Trial Court’s Findings of Fact
Defendant argues the Amended Order contains
numerous findings of fact which are not supported by
competent evidence, and the findings of fact do not
support the trial court’s conclusions of law.
“Our trial courts are vested with broad
discretion in child custody matters.” Shipman v.
Shipman, 357 N.C. 471, 474, 586 S.E.2d 250, 253
(2003) (citation omitted). Where substantial evidence
in the record supports the trial court’s findings of fact,
those findings are conclusive on appeal, even if record

37a
evidence might sustain findings to the contraty. Id. at
475, 586 S.E.2d at 254 (citation omitted).
Here, the trial court made fifty-two findings of
fact in its Amended Order. Defendant challenges over
twenty of the findings of fact made by the trial court
concerning Defendant’s behavior, Defendant’s
misleading statements to Plaintiff’s counsel and the
trial court regarding her neuropsychological
evaluation,
Defendant’s
health,
Defendant’s
relationship with Plaintiff, Defendant’s relationship
with the children, and the best interests of the
children.
After careful review of the whole record, we
conclude the trial court’s findings of fact are based
upon competent evidence in the record, including the
testimony of the Plaintiff; the parties’ former
neighbors, Jennifer and Jared Ober; Dr. KuzyszynJones; Defendant’s neurologist, Dr. Mark Skeen; and
Defendant’s own testimony from the September 2015
hearing and the 4 August 2016 hearing. Defendant’s
arguments are overruled.
Defendant also argues the trial court's
conclusions of law are not supported by the findings
of fact. Based upon our holding to vacate the trial
court's conclusions of law for the reasons stated above
m sections B and D, it is unnecessary to address these
arguments.

38a
G. Denial of Procedural Due Process Rights
Defendant also argues the trial court infringed
her constitutional rights to procedural due process by
conducting a temporary custody review on 5 April
2016 to determine the status of Defendant’s
obligation to complete the neuropsychological
evaluation. This custody review was conducted in the
trial judge’s chambers, and not in open court.
Both Plaintiff’s counsel and Defendant’s
counsel were present for this temporary custody
review. The trial court did not enter an order based
upon this temporary custody review that altered the
custody arrangement specified in the 21 December
2015 temporary custody and child support order.
Following the 5 April 2016 custody review hearing,
the trial court entered an order setting specific
guidelines for when Defendant should complete the
neuropsychological evaluation ordered by the trial
court on 21 December 2015. As a result of the
temporary custody review on 5 April 2016, the trial
court only ordered that the permanent custody review
hearing take place on 4 August 2016 and reiterated
Defendant’s obligation under the 5 December 2015
order to obtain a neuropsychological evaluation.
Defendant’s trial counsel offered no objection to the
trial court holding the in-chambers custody review
meeting. “A contention not raised in the trial court
may not be raised for the first time on appeal.”
Creasman v. Creasman, 152 N.C. App. 119, 123, 566
S.E.2d 725, 728 (2002) (citations omitted).

39a
Defendant also did not raise her procedural due
process arguments in her amended Rule 59 and Rule
60 motions to set aside the trial court’s permanent
custody order. Id. (“We note that defendant did not
raise this issue in his motion to set aside the judgment.
The record does not reflect a ruling on this issue by
the trial court”); N.C. R. App. P. 10(a)(1). These
arguments are waived and dismissed.
H. Domestic Violence
Defendant also contends the trial court failed
to consider evidence of domestic violence perpetrated
by Plaintiff in making its custody determination in
the Amended Order. N.C. Gen. Stat. § 50-13.2(a)
(2017) provides, in relevant part:
An order for custody of a minor child
entered pursuant to this section shall
award the custody of such child to such
person . . . as will best promote the
interest and welfare of the child. In
making the determination, the court
shall consider all relevant factors
including acts of domestic violence
between the parties, the safety of the
child, and the safety of either party from
domestic violence by the other party.
The Amended Order indicates it did consider
Defendant’s allegations of domestic violence by
Plaintiff. Finding of fact 24 states:
There was significant conflict between
the parties during their marriage, which

40a
culminated in physical altercations
between the parties on more than one
occasion. Defendant testified at length
about these altercations during the
September 2015 trial and described
herself as a victim of domestic violence,
but Plaintiff introduced a recording into
evidence at the September 2015 trial in
which Defendant can be heard laughing
and attempting to goad Plaintiff into a
physical altercation. There were two
incidents in July of 2014 (shortly before
the parties separated) during which
Plaintiff attempted to retreat from
Defendant during an argument by
locking himself in another room but
Defendant forced her way into the room.
Furthermore,
Defendant’s
medical
records (as introduced into evidence by
Defendant and/or made available to
Plaintiff’s counsel for cross-examination
purposes at the September 2015 trial)
are inconsistent with her testimony
about the alleged altercations.
This finding of fact was supported by
substantial competent evidence of Plaintiff’s
testimony and the audio recording referenced therein,
which was admitted into evidence. Additionally,
finding of fact 24 in the Amended Order is the same
as finding of fact 22 in the initial permanent custody
order. Defendant did not raise the issue of the trial
court’s purported failure to consider domestic violence
in her amended Rule 59 and 60 motions. Defendant

41a
had a full opportunity to assert the trial court failed
to consider domestic violence at the 1 March 2017
hearing on her Rule 59 and 60 motions, but failed to
do so. See Creasman 152 N.C. App. at 123, 566 S.E.2d
at 728; N.C. R. App. P. 10(a)(1). Defendant may
disagree with the weight and credibility the trial
court gave the evidence, but the record clearly
establishes the trial court considered the allegations
of domestic violence in determining custody pursuant
to N.C. Gen. Stat. § 50-13.2(a). Defendant’s argument
is overruled.
I. Alimony and Attorney’s Fees
Defendant next argues the trial court abused
its discretion with regard to the Alimony and
Attorney Fee Order entered by the trial court on 9
December 2016, the same day the trial court entered
its initial permanent custody order. Defendant argues
the trial court erred by awarding her alimony for a
duration calculated from the parties’ date of
separation and not from the parties’ date of divorce.
“Decisions concerning the amount and duration of
alimony are entrusted to the trial court’s discretion
and will not be disturbed absent a showing that the
trial court has abused such discretion.” Robinson v.
Robinson, 210 N.C. App. 319, 326, 707 S.E.2d 785, 791
(2011).
The trial court is required to consider the
sixteen factors enumerated in N.C. Gen. Stat. § 5016.3A(b) in deciding to award alimony. N.C. Gen. Stat.
§ 50-16.3A(c) (“[T]he court shall make a specific
finding of fact on each of the factors in subsection (b)

42a
of this section if evidence is offered on that factor.”).
“[T]he award of . . . attorney’s fees in matters of child
custody and support, as well as alimony . . . is within
the discretion of the trial court.” McKinney v.
McKinney, 228 N.C. App. 300, 307, 745 S.E.2d 356,
361 (2013).
Here, the trial court made several specific and
unchallenged findings of fact with reference to
attorney’s fees and the required statutory factors for
determining alimony. Defendant does not challenge
any of these findings of fact or argue that these
findings are not supported by competent evidence in
the record. Defendant has failed to show the trial
court abused its discretion in calculating the amount
of alimony awarded or by denying Defendant’s claim
for attorney’s fees. Defendant’s arguments are
overruled.
J. 1 March 2017 Hearing
Defendant attempts to argue the trial court
erred with respect to actions taken by her own
attorney at a hearing on 1 March 2017. This hearing
was held on several motions filed by Defendant. After
the trial court entered its original permanent child
custody order and its order on alimony and attorney’s
fees on 9 December 2016, Defendant subsequently
filed a pro se Rule 59 motion on 16 December and a
pro se Rule 60 motion on 19 December.
Defendant obtained new counsel, who then
filed amended Rule 59 and Rule 60 motions on 20
February 2017. These motions were heard by the trial

43a
court on 1 March 2017, in addition to three pro se
contempt motions Defendant had previously filed.
At the outset of the 1 March 2017 hearing,
Defendant’s counsel stated to the trial court that the
contempt motions “are right now being written up in
a voluntarily dismissal to be dismissed with prejudice
as of today.” The trial court then proceeded to hear
Defendant’s amended Rule 59 and Rule 60 motions.
The trial court granted Defendant’s Rule 59 motion
and later entered the Amended Order on 6 March
2017.
Defendant appears to argue the trial court
should have considered her original pro se Rule 59
motion instead of the amended motion filed by her
attorney. Defendant asserts her contempt motions
should not have been dismissed on 1 March 2017.
These motions were voluntarily dismissed by
Defendant’s own counsel and not by the trial court.
Defendant was present for the 1 March 2017 hearing
and did not voice any disagreement to the trial court
over her counsel’s voluntary dismissal of the
contempt motions. Defendant cites no authority to
support these arguments. Defendant fails to establish
any error on the trial court’s part with respect to the
Rule 59 motion and the voluntary dismissal of her
contempt motions. These arguments are dismissed.
VI. Conclusion
The trial court erred and abused its discretion
by delegating its authority to determine Defendant’s
visitation rights to Plaintiff and by effectively

44a
terminating Defendant’s parental rights without first
making a finding of unfitness or acts inconsistent
with her constitutionally protected status by clear,
cogent, and convincing evidence, and violated the
statute by limiting her access to her children to
telephone calls only. Owenby, 357 N.C. at 148, 579
S.E.2d at 268; Moore, 160 N.C. App. at 573-74, 584
S.E.2d at 76; N.C. Gen. Stat. § 50-13.2(e).
Defendant has failed to show the trial court
abused its discretion in calculating the amount of
alimony, or in denying her claim for attorney’s fees.
Defendant has failed to preserve her arguments
concerning the trial court’s ordering of a
neuropsychological evaluation and the trial court’s
purported violations of her procedural due process
rights. Defendant’s remaining arguments are
overruled and dismissed for failures to object and
preserve.
The Alimony Order and Attorney Fees Order
are affirmed. The trial court’s conclusions of law and
decretal portions of its Amended Order are vacated
and remanded for further proceedings as consistent
with this opinion. It is so ordered.
AFFIRMED IN PART, VACATED IN PART,
AND REMANDED.
Judge BERGER concurs with separate opinion.
Judge INMAN concurs in part, dissents in part,
with separate opinion.

45a
BERGER, Judge, concurring.
I fully concur in the majority opinion, but write
separately to address a trend in this Court’s
jurisprudence that has troubling implications.
In the last few years, this Court increasingly
has overruled precedent on the ground that a case,
although published and otherwise controlling, itself
failed to follow an even earlier Court of Appeals or
Supreme Court case. 1
At first glance, this approach might seem
appropriate. After all, In re Civil Penalty tells us that
one panel cannot overrule another on the same issue.
324 N.C. 373, 384, 379 S.E.2d 30, 36-37 (1989). If it
appears a second panel did precisely that by
refusing to follow the precedent set by the first panel,
should the third panel faced with the issue not ignore
the second and follow the first? But, what if a fourth
panel comes along and concludes that the second
panel properly distinguished or limited the first panel?
That fourth panel could refuse to follow the third

1 Here

are a few examples: State v. Alonzo, ___ N.C. App. ___, ___,
___ S.E.2d ___, ___, No. COA17-1186, 2018 WL 3977546, at *2
(Aug. 21, 2018), temporary stay allowed, ___ N.C. ___, 817 S.E.2d
733 (2018); State v. Jones, ___ N.C. App. ___, ___, 802 S.E.2d 518,
523 (2017); State v. Mostafavi, ___ N.C. App. ___, ___, 802 S.E.2d
508, 513 (2017), rev'd, 370 N.C. 681, 811 S.E.2d 138 (2018); State
v. Meadows, ___ N.C. App. ___, ___, 806 S.E.2d 682, 693-94 (2017),
disc. review allowed, ___ N.C. ___, 812 S.E.2d 847 (2018); In re
D.E.P., ___ N.C. App. ___, ___, 796 S.E.2d 509, 514 (2017).

46a
panel on the ground that it improperly overruled the
second.
This may sound more like a law school
hypothetical than a real-world problem, but it is very
real. As the case before us here demonstrates, this
Court can be trapped in a chaotic loop as different
panels disagree, not only on the interpretation of the
law, but also on what law appropriately controls the
issue.
This problem is compounded by the reality that
we are an intermediate appellate court that sits in
panels. Ordinarily, the doctrine of stare decisis will
prevent appellate courts from casually tossing away
precedent decided just a few years (or even months)
earlier. 2 But that precedential effect is much weaker

2 “The

judicial policy of stare decisis is followed by the courts of
this state.” Musi v. Town of Shallotte, 200 N.C. App. 379, 383,
684 S.E.2d 892, 896 (2009) (citation omitted). “Stare decisis is the
preferred course because it promotes the evenhanded,
predictable, and consistent development of legal principles,
fosters reliance on judicial decisions, and contributes to the
actual and perceived integrity of the judicial process.” Janus v.
Am. Fed’n of State, Cnty., & Mun. Employees, Council
31, U.S. , , 201 L. Ed. 2d 924, 954-55 (2018) (citing Payne
v. Tennessee, 501 U.S. 808, 827, (1991)).
“[A]ntiquity has never been a reason for this Court to overrule
its own prior case law or that of the North Carolina Supreme
Court; indeed, this Court does not have authority to do so.”
Strickland v. City of Raleigh, 204 N.C. App. 176, 181, 693 S.E.2d
214, 217 (2010) (citation omitted). “When this Court is presented
with identical facts and issues, we are bound to reach the same
conclusions as prior panels of this court.” Smith v. City of

47a
when a court sits in panels where the judges
considering the issue were not necessarily involved in
the earlier decision. As the dissent notes in footnote 4,
we make mistakes.
One solution to this problem is for this Court to
write
opinions
following
our
precedent,
notwithstanding that panel’s view of the weaknesses
and errors within the current state of the law. In such
an opinion, that panel could explain why the
precedent is incorrect and make a direct request for
the Supreme Court to use their power of discretionary
review to announce the correct rule.
But many judges on this Court view this
approach as unrealistic. 3 The Supreme Court hears
cases on discretionary review primarily because they
Fayetteville, 220 N.C. App. 249, 253, 725 S.E.2d 405, 409 (2012)
(citation omitted).
3 Nevertheless,

it is “an established rule to abide by former
precedents, stare decisis, where the same points come up again
in litigation, as well to keep the scale of justice even and steady,
and not liable to waver with every new judge’s opinion, as also
because, the law in that case being solemnly declared and
determined what before was uncertain, and perhaps indifferent,
is now become a permanent rule, which it is not in the breast of
any subsequent judge to alter or swerve from according to his
private sentiments; he being sworn to determine, not according
to his private judgment, but according to the known laws and
customs of the land, - not delegated to pronounce a new law, but
to maintain and expound the old one - jus dicere et non jus dare
[to declare the law, not to make the law].” McGill v. Town of
Lumberton, 218 N.C. 586, 591, 11 S.E.2d 873, 876 (1940) (citation
omitted).

48a
involve matters of “significant public interest” or
“major significance to the jurisprudence of the State.”
N.C. Gen. Stat. § 7A-31. Though our frequent
intramural disputes over In re Civil Penalty seem
significant to us, the underlying legal issues often are
narrow, are of no public interest, and affect only
minor or isolated issues within our jurisprudence. At
a high court that hears only seventy or eighty cases
on discretionary review each year, these simply won't
make the cut.
There is another option. This Court now has
the power to sit en banc. See N.C. Gen. Stat. § 7A-16.
When the Supreme Court issued procedural rules for
our en banc review, it instructed that we may sit en
banc “to secure or maintain uniformity of the court’s
decisions.” N.C. R. App. P. 31.1(a)(1). This suggests
that our Supreme Court anticipated we would use our
authority to sit en banc to address these minor
conflicts in our case law and resolve them ourselves.
And, of course, if this Court sitting en banc gets it
wrong, an opinion explaining the conflicting cases and
the detailed reasons underlying our interpretation of
them would issue from this Court, producing an
excellent vehicle by which the Supreme Court can
grant review and announce the correct rule.
Unfortunately, we have yet to sit en banc. To
date, there have been 61 petitions filed requesting
this Court to hear cases en banc, and we have declined
to hear every single one. Perhaps some of my fellow
judges on this Court are skeptical of whether the
Supreme Court wants us to resolve our own conflicts.
Some may be convinced that this resolution is not

49a
ours, but the business of our higher court. Others may
have different motives. Whatever the reasons we have
declined to sit en banc may be, legitimate or otherwise,
encouragement and accountability from the appellate
bar would be beneficial. Of course, if the Supreme
Court believes this Court should resolve our conflicts
en banc, it would be helpful for that Court to say so.
INMAN, Judge, concurring in part and dissenting in
part.
I concur in the majority opinion affirming the
Alimony Order and Attorney Fees Order. I
respectfully dissent from the majority opinion
vacating the trial court’s conclusions of law regarding
custody and its decree awarding full custody to
Plaintiff. The majority’s holding in this respect is
precluded by established precedent of the North
Carolina Supreme Court and this Court and
threatens to upend the stability of decisions by our
trial courts in child custody disputes between parents.
The trial court’s Amended Order denying
Defendant custody and visitation complied with
Section 50-13.5 of the North Carolina General
Statutes, which provides:
In any case in which an award of child
custody is made in a district court, the
trial judge, prior to denying a parent the
right of reasonable visitation, shall make
a written finding of fact that the parent
being denied visitation rights is an unfit
person to visit the child or that such

50a
visitation rights are not in the best
interest of the child.
N.C. Gen. Stat. § 50-13.5(i) (2018) (emphasis added).
“Where a statute contains two clauses which
prescribe its applicability and clauses are connected
by the disjunctive ‘or’, application of the statute is not
limited to cases falling within both clauses but applies
to cases falling within either one of them.” Grassy
Creek Neighborhood All., Inc. v. City of WinstonSalem, 142 N.C. App. 290, 297, 542 S.E.2d 296, 301
(2001) (internal quotation marks and citations
omitted). Ultimately the trial court found that”[i]t is
not in the children’s best interests to have visitation
with Defendant.” Given this finding, pursuant to N.C.
Gen. Stat. § 50-13.5(i), the trial court had the
authority to suspend Defendant’s visitation with the
children without finding that Defendant was a person
unfit to visit them.
The trial court’s express finding that visitation
with Defendant was not in the children’s best interest
followed several other findings by the trial court of
Defendant’s harmful interactions with her children,
including: (1) Defendant’s behavior necessitated that
her daughter have a safety plan while in her custody;
(2) Defendant engaged in physical and verbal
altercations with her daughter; (3) Defendant was
trespassed from her son’s preschool as a result of her
behavior there; (4) she had difficulty controlling her
son’s behavior; (5) she removed her son from
preschool contrary to the school’s recommendation
and without Plaintiff’s knowledge or consent; and
(6) her daughter’s emotional distress was caused by

51a
spending time with Defendant. Each of these findings
was supported by competent evidence.
The majority does not hold that the trial court
erred in its findings of fact regarding Defendant’s
harmful interactions with the children. The majority
does not hold that the trial court erred in finding that
visitation with Defendant was not in the children’s
best interest. Rather, the majority holds that
Defendant has a constitutional right to visitation with
her children which has been violated by the trial court
and remands the matter for “constitutionally required
findings based upon clear, cogent, and convincing
evidence.” In support of today's holding, the majority
relies on Moore v. Moore, 160 N.C. App. 569, 587
S.E.2d 74 (2003), a decision disavowed by this
Court—and one directly contrary to controlling North
Carolina Supreme Court precedent—which held that
when resolving a custody dispute between two
parents, a trial court cannot suspend one parent’s
visitation rights absent a finding that either the
parent is unfit or engaged in conduct that is
inconsistent with his or her protected status. Id. at
573, 587 S.E.2d at 76.
Moore held that in a custody dispute between a
child’s natural or adoptive parents, “absent a
finding that parents (i) are unfit or (ii) have neglected
the welfare of their children, the constitutionallyprotected paramount right of parents to custody, care,
and control of their children must prevail.” Id. at 572,
587 S.E.2d at 76 (internal quotation marks and
citation omitted). As support for this holding, Moore
quoted Petersen v. Rogers, 337 N.C. 397, 403-04, 445

52a
S.E.2d 901, 905 (1994), which established a
constitutionally-based presumption favoring a parent
in a custody dispute with a non-parent (the “Petersen
presumption”). 4 But unlike Moore, Petersen involved
a custody conflict between parents and non-parents.
337 N.C. at 399, 445 S.E.2d at 902. Moore did not
acknowledge that factual distinction or provide any
analysis to support extending the Petersen holding to
a dispute between two parents. Nor did Moore
acknowledge controlling Supreme Court precedent
expressly holding that Petersen does not apply to
custody disputes between two parents, such as the
case we decide today.
Significantly, after Petersen was decided and a
few months prior to Moore, the North Carolina
Supreme Court, in a child custody dispute between a
father and maternal grandmother, explained the
distinction between proceedings involving (1) a
parent versus a non-parent, and (2) a parent versus
the other parent:

quoted the holding in Stanley v. Illinois, 405 U.S. 645,
92 S. Ct. 1208, 31 L.Ed.2d 551 (1972), that “ ‘[i]t is cardinal with
us that the custody, care and nurture of the child reside first in
the parents, whose primary function and freedom include
preparation for obligations the state can neither supply nor
hinder.’ ” 337 N.C. at 400-01, 445 S.E.2d at 903 (emphasis
omitted) (quoting Stanley, 405 U.S. at 651, 31 L.Ed.2d at 559).
Relying on Stanley, the Petersen Court noted that a natural
parent has a “constitutionally-protected paramount right to
custody, care, and control of their child.” Id. at 400, 445 S.E.2d
at 903.

4 Petersen

53a
We acknowledged the importance of [a
parent’s] liberty interest nearly a decade
ago when this Court [in Petersen] held:
absent a finding that parents (i) are unfit
or (ii) have neglected the welfare of their
children, the constitutionally protected
paramount right of parents to custody,
care, and control of their children must
prevail. The protected liberty interest
complements the responsibilities the
parent has assumed and is based on a
presumption that he or she will act in the
best interest of the child. The
justification for the paramount status is
eviscerated when a parent’s conduct is
inconsistent with the presumption or
when a parent fails to shoulder the
responsibilities that are attendant to
rearing a child. Therefore, unless a
natural parent’s conduct has been
inconsistent
with
his
or
her
constitutionally
protected
status,
application of the “best interest of the
child” standard in a custody dispute with
a nonparent offends the Due Process
Clause of the United States Constitution.
Furthermore, the protected right is
irrelevant in a custody proceeding
between two natural parents, whether
biological or adoptive, or between two
parties who are not natural parents. In
such instances, the trial court must

54a
determine custody using the “best interest
of the child” test.
Owenby v. Young, 357 N.C. 142, 145, 579
S.E.2d 264, 266-67 (2003) (internal quotation marks
and citations omitted) (emphasis added). Moore failed
to cite Owenby, much less attempt to distinguish its
holding that a parent’s constitutional right is
irrelevant in a custody dispute with the other parent.
Moore was not pursued further on appeal, so its
conflict with Owenby was not reviewed by the
Supreme Court. 5
The error of Moore was ultimately noted a
decade later, in a unanimous decision written by a
judge who had concurred in Moore. In Respess v.
Respess, 232 N.C. App. 611, 754 S.E.2d 691 (2014),
that judge, writing for a unanimous panel, concluded
that “the standard articulated in Moore directly
conflicts with prior holdings of . . . our Supreme Court
and therefore does not control our decision in the
5 Although

Moore was not appealed, our Supreme Court passed
on the opportunity to ratify or adopt the holding of Moore two
years later in In re T. K., D.K., T. K., & J. K., 171 N.C. App. 35,
613 S.E.2d 739, aff'd 360 N.C. 163, 622 S.E.2d 494 (2005). That
appeal followed a split decision by this Court. The dissent in In
re T.K. asserted—as the majority holds here—that a trial court’s
order awarding visitation to the father was in error because,
pursuant to Moore, the trial court did not make findings that the
mother’s “conduct was inconsistent with her protected status as
a parent,” or, by clear and convincing evidence, that the mother
was “unfit as a parent.” Id. at 44, 613 S.E.2d at 744 (Tyson, J.,
dissenting). On review, the Supreme Court affirmed the majority
opinion per curiam. In re T. K., 360 N.C. 163, 622 S.E.2d 494.

55a
instant case.” Id. at 624-25, 754 S.E.2d at 700-01.
Respess explained that prior to Moore, precedent
consistently held:
(1) the standard in a custody dispute
between a child’s parents is the best
interest of the child; (2) the applicable
burden of proof is the preponderance of
the evidence; (3) the principles that
govern a custody dispute between a
parent and a non-parent are irrelevant to
a custody action between parents; and
(4) a trial court complies with N.C. Gen.
Stat. § 50-13.5(i) if it makes the finding
set out in the statute.
Id. at 627, 754 S.E.2d at 702. Respess acknowledged
our Supreme Court’s holding in In re Appeal of Civil
Penalty, 324 N.C. 373, 384, 379 S.E.2d 30, 36 (1989),
that a panel of this Court is bound by a prior decision
by another panel of this Court deciding the same issue,
but held that rule of decision did not apply to bind the
panel to follow Moore, because “this Court has no
authority to reverse existing Supreme Court
precedent.” Respess, 232 N.C. App. at 625, 754 S.E.2d
at 701. Respess was never appealed and, until our
Supreme Court tells us otherwise, Respess remains
good law on both points.
Today’s majority opinion quotes a portion of the
opinion in Owenby, but conspicuously omits the
Supreme Court’s key holding directly controlling in
this case, that a constitutional analysis “is irrelevant
in a custody proceeding between two natural parents”

56a
and that “[i]n such instances, the trial court must
determine custody using the ‘best interest of the child’
test.” Owenby, 357 N.C. at 145, 579 S.E.2d at 267; see
also Respess, 232 N.C. App. at 626, 754 S.E.2d at 70102 (“Moore’s holding that the Petersen presumption
applies to a trial court’s decision to deny visitation
rights to a non-custodial parent [in a dispute with the
custodial parent] contradicts our Supreme Court’s
holding [in Owenby] that Petersen is ‘irrelevant’ to a
dispute between parents and that in such instances,
the trial court must determine custody using the ‘best
interest of the child’ test.” (internal quotation marks,
citation, and brackets omitted)).
The majority also fails to distinguish the facts
of this case from Respess, or to address the effect of
Owenby on Moore’s precedential value. The majority’s
holding today deviates from years of consistent
precedent and confuses an otherwise settled area of
law affecting families across our state. 6
6 As

noted by the majority, until it was disavowed by Respess as
violating controlling precedent, Moore was cited in subsequent
decisions by this Court for its holding directly contrary to
Owenby. But see Everette v. Collins, 176 N.C. App. 168, 173-74,
625 S.E.2d 796, 799-800 (2006) (distinguishing disputes between
parents and non-parents, involving the “constitutionally
protected status afforded parents,” and disputes between only
parents, applying the “best interest of the child” determination
without constitutional analysis). But none of the decisions citing
Moore for that holding acknowledged the conflict. Since Respess,
Moore has been cited by this Court for its holding that a trial
court’s findings of fact must resolve factual issues rather than
merely reciting witness testimony, but it has not been cited in a
majority decision for the proposition disavowed in Respess. See
State v. Robinson, ___ N.C. App. ___, ___, 805 S.E.2d 309, 317

57a
The majority asserts that Respess violated the
North Carolina Supreme Court’s holding in In re
Appeal of Civil Penalty that one panel of this Court is
bound by a previous panel’s decision on the same
issue. But the majority fails to acknowledge that
Respess explicitly held that In re Civil Penalty did not
require this Court to repeat the holding in Moore that
was contrary to controlling precedent by our Supreme
Court. See Respess, 232 N.C. App. at 629, 754 S.E.2d
at 703.
Earlier this year, in a unanimous opinion, this
Court expressly adopted the holding in Respess which
interpreted and distinguished In re Civil Penalty to
disavow Moore. See Martinez v. Wake Cty. Bd. of
Educ., ___ N.C. App. ___, ___, 813 S.E.2d 659, 667
(2018) (discussing Respess at length and holding that
“it is clear that where a prior ruling of this Court is in
conflict with binding Supreme Court precedent, we
must follow the decision of the Supreme Court rather
than that of our own Court”). Today’s decision cannot
be harmonized with Respess or Martinez.
The jurisprudential history of In re Civil
Penalty, contrasted with the history of Moore, Respess,
and today’s decision, demonstrates the majority’s
error in this case. In re Civil Penalty arose from a
conflict regarding the precedent established by the
North Carolina Supreme Court in State ex rel. Lanier
(2017); Lueallen v. Lueallen, ___ N.C. App. ___, ___, 790 S.E.2d
690, 698 (2016); Kelly v. Kelly, 228 N.C. App. 600, 610, 747 S.E.2d
268, 278 (2013).

58a
v. Vines, 274 N.C. 486, 490, 164 S.E.2d 161, 163 (1968).
Lanier held that a statute allowing the Commissioner
of Insurance to impose a monetary penalty of up to
$25,000 for violations of administrative regulations
improperly delegated power vested exclusively in the
judiciary by Art. IV, § 3, of the North Carolina
Constitution. Id. at 497, 164 S.E.2d at 168. Almost
twenty years later, in North Carolina Private
Protective Services Board v. Gray, Inc., 87 N.C. App.
143, 360 S.E.2d 135 (1987), this Court rejected a
constitutional challenge to a statute authorizing the
North Carolina Private Protective Services Board to
impose monetary penalties of up to $2,000 for
violations of agency regulations. Id. at 147, 360
S.E.2d at 138. Gray held that “[t]his case is readily
distinguishable from the situation in Lanier.” Id. at
147, 360 S.E.2d at 138.
One year later, in In re Civil Penalty, 92 N.C.
App. 1, 373 S.E.2d 572 (1989), in a split decision, this
Court addressed the constitutionality of a statute
authorizing the Department of Natural Resources to
assess an administrative penalty against individuals
who violated the Sedimentation Pollution Act. Id. at
3, 373 S.E.2d at 573. The majority opinion concluded
that this Court was bound by the decision in Lanier,
and not by Gray, reasoning that the “rationale [in
Gray] directly contradicts the rationale and result of
Lanier.” Id. at 16, 373 S.E.2d at 581. The dissent
asserted that the majority’s failure to follow Gray’s
interpretation of Lanier “unjustifiably overrule[d]”
Gray, which “was correctly decided and should have
governed the court’s decision in the case before us.” Id.

59a
at 21, 373 S.E.2d at 583 (Becton, J., dissenting). On
review, the North Carolina Supreme Court agreed
with the dissent and concluded that “the effect of the
majority’s decision here was to overrule Gray. This it
may not do.” In re Civil Penalty, 324 N.C. at 384, 379
S.E.2d at 37. The Supreme Court went on to explain,
in a holding quoted by this Court in dozens of
decisions over the past quarter century, that, “[w]here
a panel of the Court of Appeals has decided the same
issue, albeit in a different case, a subsequent panel of
the same court is bound by that precedent, unless it
has been overturned by a higher court.” Id. at 384, 379
S.E.2d at 37.
Unlike this Court’s decision in Gray, which
addressed and distinguished the North Carolina
Supreme Court’s decision in Lanier, this Court’s
decision in Moore utterly failed to acknowledge the
Supreme Court’s decision in Owenby. 7 A citation to
Owenby is nowhere to be found in Moore. The
7I

do not suggest that the panel in Moore deliberately ignored
Owenby. The Supreme Court issued its decision in Owenby in
May 2003; Moore was heard in this Court just three months later,
in August 2003. Given the typical lapse of months between the
submission of briefs and hearing before this Court in most cases,
it is likely that Owenby was decided by the Supreme Court after
briefing in Moore was completed, and that neither counsel nor
the panel deciding Moore realized that binding precedent
intervened. Such an error reflects not defiance or judicial
recklessness but merely the very human occurrence of
overlooking a new precedent when deciding one among a
tremendous volume of cases heard by panels of this Court. By
contrast, today’s majority violates precedent specifically called to
its attention.

60a
assertion by the majority today that Moore applied
the holding of Owenby misrepresents the reported
decision.
Unlike Moore, Respess cited Owenby, discussed
it at length, and characterized the Supreme Court’s
statement that the Petersen presumption is
“irrelevant in a custody proceeding between two
natural parents” as a “holding” in Owenby. Respess,
232 N.C. App. at 625-26, 754 S.E.2d at 701-02. As
Respess has not been overturned by a higher court, we
are thus bound by its interpretation of Owenby, and
must conclude that the language ignored by the
majority in today’s decision is a holding by our
Supreme Court. See In re Civil Penalty, 324 N.C. at
384, 379 S.E.2d at 37. And it is directly controlling
here. This Court’s holding in Moore must yield to the
Supreme Court’s holding in Owenby. We do not have
the “authority to overrule decisions of the Supreme
Court of North Carolina and [have a] responsibility to
follow those decisions, until otherwise ordered by the
Supreme Court.” Cannon v. Miller, 313 N.C. 324, 324,
327 S.E.2d 888, 888 (1985).
The rule of decision established by In re Civil
Penalty applies when two panels of this Court issue
conflicting decisions on the same issue without
distinguishing the facts or applicable law, passing
each other like ships in the night. But In re Civil
Penalty does not bind a panel of this Court to a
decision by a prior panel that conflicts with Supreme
Court precedent. The conflict between a decision by
this Court and one by our Supreme Court is more akin

61a
to a row boat passing an ocean liner. It is resolved not
by In re Civil Penalty but by stare decisis.
“A primary goal of adjudicatory proceedings is
the uniform application of law. In furtherance of this
objective, courts generally consider themselves bound
by prior precedent, i.e., the doctrine of stare decisis.”
Bacon v. Lee, 353 N.C. 696, 712, 549 S.E.2d 840, 85152 (2001). The doctrine of stare decisis “is a maxim to
be held forever sacred.” Commonwealth v. Coxe, 4 U.S.
170, 1 L. Ed. 786, 4 Dall. 170, 192 (Pa. 1800). Because
it is so fundamental to our jurisprudence, the doctrine
is generally applied without comment and is
described at length only in dissenting opinions.
“Adhering to this fixed standard ensures that we
remain true to the rule of law, the consistent
interpretation and application of the law.” State ex.
rel. McCrory v. Berger, 368 N.C. 633, 651, 781 S.E.2d
248, 260 (2016) (Newby, J., concurring in part and
dissenting in part). “[T]here must be some uniformity
in judicial decisions . . . or else the law itself, the very
chart by which we are sailing, will become as unstable
and uncertain as the shifting sands of the sea[.]” State
v. Bell, 184 N.C. 701, 720, 115 S.E. 190, 199 (1922)
(Stacy, J., dissenting).
This Court in Respess correctly held that it was
not bound by In re Civil Penalty to follow Moore’s
holding—which plainly diverged from Supreme Court
precedent. And, as Respess distinguished In re Civil
Penalty and explained why it did not apply—i.e., that
it did not bind the panel to Moore—we are bound by
that interpretation, ironically pursuant to In re Civil
Penalty. Stated differently, the majority charts the

62a
same wayward course that previously led this Court
to run aground even though our Supreme Court has
built us a lighthouse in In re Civil Penalty; just as
Gray constituted a binding interpretation of Lanier,
Respess provided binding interpretations of Owenby 8
and In re Civil Penalty. We are bound by Respess
unless and until it is disavowed by our Supreme Court.
The majority opinion today vacates the
conclusions of law and custody portions of the
Amended Order based on the trial court’s failure to
include findings only deemed necessary in Moore.
Today’s decision, like the decision in Moore, conflicts
with binding precedent and the plain language of N.C.
Gen. Stat. § 50-13.5(i), the governing statute.
Because the dispute is exclusively between the
children’s parents, the trial court properly applied the
“best interest of the child” test. See Adams v. Tessener,
354 N.C. 57, 61, 550 S.E.2d 499, 502 (2001) (“In a
custody proceeding between two natural parents
(including biological or adoptive parents), or between
two parties who are not natural parents, the trial
court must determine custody based on the ‘best
interest of the child’ test.”).
The majority today also asserts—again citing
Moore—that the “Amended Order purported to deny
Defendant all custody and visitation with her
children, effectively terminating her parental rights.”
8 As

recounted supra, there is nothing in Moore to indicate it was
interpreting or applying Owenby, let alone that it was cognizant
of the decision. Thus, Respess was not bound by any
interpretation of Owenby in Moore, as none appears therein.

63a
A loss of visitation or custody in a Chapter 50
proceeding between two parents is fundamentally
different from the termination of parental rights,
which can only be accomplished in a proceeding
pursuant to Chapter 7B. “Our jurisprudence has long
recognized significant differences between a child
custody order, which is subject to modification upon a
showing of changed circumstances, and orders for
adoption or for termination of parental rights, which
are permanent.” Respess, 232 N.C. App. at 626, 754
S.E.2d at 702 (citations omitted). Among other things,
the standard of proof prescribed by Chapter 50 for
custody disputes between parents is a preponderance
of the evidence; by contrast, the standard of proof
prescribed by Chapter 7B for termination of parental
rights is clear and convincing evidence. N.C. Gen.
Stat. § 7B-1110(b) (2018); Speagle v. Seitz, 354 N.C.
525, 533, 557 S.E.2d 83, 88 (2001).
For the foregoing reasons, I respectfully dissent
from the majority opinion regarding the award of
child custody and would affirm the Amended Order’s
conclusions of law and decree regarding custody.
Because I dissent from the majority opinion
vacating the trial court’s decree suspending
Defendant’s right to visitation with her children, I
disagree with the majority’s holding that the trial
court erred by delegating to Plaintiff the sole
discretion to allow, or deny, telephone contact
between Defendant and their children. That is, if
Defendant has no right to visitation, the trial court’s
delegation of discretion to Plaintiff is mere surplusage,
albeit admittedly confusing. Assuming arguendo that

64a
the trial court erred in this portion of its decree, it was
surplusage that does not require appellate review.
In sum, I concur in the majority opinion
affirming the Alimony Order and Attorney Fees
Order. I respectfully dissent from the majority
opinion vacating the trial court’s conclusions of law
and its decree awarding full custody to Plaintiff.

65a
APPENDIX C
MEMORANDUM OF JUDGMENT/ORDER OF
THE WAKE COUNTY DISTRICT COURT
(August 4, 2016)
STATE OF NORTH CAROLINA
WAKE COUNTY
14 CVD 10295

___________________________

JOHN TYLER ROUTTEN,
Plaintiff,
v.
KELLY GEORGENE ROUTTEN,
Defendant.
[Original Handwritten]
Pending further orders of the Court, the minor
children shall remain in the physical custody of
Plaintiff. The legal custody & phone/skype provisions
of the December 2015 custody order shall remain in
effect pending further orders of the Court.

66a
The Court Orders:
(a)

With the signing of this Memorandum by
the presiding judge, this Memorandum
shall become a judgment/order of the
court and shall be deemed entered
pursuant to Rule 58 of the North
Carolina Rules of Civil Procedure on the
date filed with the Clerk;

(b)

the provisions of this Memorandum are
fair and reasonable and each party has
had ample opportunity to obtain legal
advice concerning the legal effect and
terms of this Memorandum;

(c)

this Memorandum is enforceable by the
contempt powers of the court should any
party not comply with its terms;

(d)

the format judgment or order may be
signed by the presiding judge out of term,
session, county and district;

Prior to accepting the stipulated agreement of the
parties, the undersigned judge read the terms of the
above stipulations and agreements to the parties, and
made careful inquiry of them with regards to the
voluntary nature of their agreement and their
understanding thereof. The court explained to the
parties the legal effect of their stipulations and
agreements and determined that the parties
understood the legal effect and terms of the agreement
and stipulations. The parties acknowledged their

67a
voluntary execution of the agreements and
stipulations, stated that the terms accurately
recorded their agreement, and agreed of their own free
wills to abide by them.

Date 8/4/16

/s/_______________________

68a
APPENDIX D
CHILD CUSTODY ORDER OF THE WAKE
COUNTY DISTRICT COURT (December 9, 2016)
IN THE GENERAL COURT OF JUSTICE
DISTRICT COURT DIVISION
14 CVD 10295
Assigned Judge: DENNING
NORTH CAROLINA
WAKE COUNTY
___________________________

JOHN TYLER ROUTTEN,
Plaintiff,
v.
KELLY GEORGENE ROUTTEN,
Defendant.
THIS CAUSE came on for hearing on the
parties’ claims for permanent child custody before the
undersigned District Court Judge presiding over the
SEPTEMBER 21, 2015 Civil Domestic Session of
District Court, Wake County, North Carolina; and
IT APPEARING TO THE COURT that Plaintiff
was present and represented in this matter by Jill
Jackson of Tharrington Smith, LLP, in Raleigh, North
Carolina and Defendant was present and represented
in this matter by Laura Brennan, of Raleigh, North
Carolina; and

69a
THE COURT, after consideration of the
evidence and testimony presented during the four (4)
days of trial, determined that it was appropriate
under the circumstances for this Court to enter a
temporary custody order that determined the
custodial arrangements for the children pending
completion of a neuropsychological evaluation by
Defendant; and
THE COURT conducted a custody review in
chambers with counsel for the parties on April 5, 2016,
to determine the status of Defendant’s completion of
the neuropsychological evaluation; and
THE COURT entered an Order on April 27,
2016, that established more specific requirements for
Defendant’s completion of the neuropsychological
evaluation prior to a final hearing scheduled for
August 4, 2016; and
THE COURT conducted the final hearing on
the parties’ claims for permanent child custody on
August 4, 2016, at which time Plaintiff was present
and represented by Jill Jackson of Tharrington Smith,
LLP, and Defendant was present and represented by
Norman York, both parties testified before the Court;
and
THE COURT upon review of the pleadings and
other documents of record and after considering the
documents of record, evidence, testimony of witnesses,
and arguments of the parties, hereby makes and
enters the following:

70a
FINDINGS OF FACT
1.
Both parties are residents of Wake
County, North Carolina, and have been for more than
six (6) months preceding the filing of this action.
2.
Plaintiff and Defendant were married to
each other on March 23, 2002.
3.
Plaintiff and Defendant separated from
each other on July 26, 2014. The parties are now
divorced.
4.
The parties are the parents of two
children, namely: H.B.R., born June 2, 2004 (age 12);
and B.C.R., born July 17, 2012 (age 4).
5.
The minor children have resided with
the parties in Wake County, North Carolina at all
times from their birth until the parties’ separation.
From the date of the parties’ through September 2015,
the children resided primarily with Defendant and
secondarily with Plaintiff in Wake County, North
Carolina. Since September 2015, the children have
resided primarily with Plaintiff and secondarily in
Wake County, North Carolina.
6.
During the four (4) day trial in
September 2015, the Court heard testimony from
Plaintiff, Defendant, Jennifer Ober, Jared Ober, Jerry
Baker, George Hurst, Connie Hurst, Grant Decker,
Natalie Panko, Carrie Brown, Stephanie Normand,
Dr. Mark Skeen, Dr. Katrina Kuzyszyn-Jones, and Dr.
Joanne deSupinski.

71a
7.
During the August 4, 2016 hearing, the
Court heard testimony from Plaintiff and Defendant.
8.
Dr. Skeen and Dr. Kuzyszyn-Jones were
qualified by the Court to testify as expert witnesses.
9.
Defendant has Multiple Sclerosis and is
experiencing impairment of her episodic memory,
working memory, and processing speed.
10.
During the September 2015 proceeding,
Dr. Kuzyszyn-Jones recommended that Defendant
undergo a neuropsychological evaluation.
11.
This Court entered an Order: Custody
and Child Support (“Temporary Order”) on December
21, 2015 that determined the custodial arrangements
for the children pending the completion by Defendant
of a neuropsychological evaluation.
12.
This Court conducted an in-chambers
custody review with counsel for the parties on April 5,
2016, to determine the status of Defendant’s
completion of the neuropsychological evaluation. On
April 27, 2016, the Court entered an Order that
established
more
specific
requirements
for
Defendant’s completion of the neuropsychological
evaluation prior to a final hearing scheduled for
August 4, 2016.
13.
Defendant filed a Notice of Appeal on
May 24, 2016. Defendant appealed only from the
Order entered by the Court on April 27, 2016 (but not
from the Temporary Order entered on December 21,
2015).

72a
14.
Defendant’s appeal was dismissed by
this Court on August 2, 2016.
15.
During the pendency of the appeal,
various motions were filed by Defendant with the
Court and with the North Carolina Court of Appeals
in which Defendant made representations regarding
the status of her neuropsychological examination.
Defendant’s representations, considered as a whole,
caused the Court and Plaintiff’s attorney to
understand that Defendant had not completed the
neuropsychological evaluation and did not intend to
do so, either because she could not afford to do so or
because she objected to doing so on privacy grounds.
16.
At the August 4, 2016 hearing,
Defendant’s counsel revealed that Defendant had, in
fact, submitted to a neuropsychological evaluation in
April 2016 but Defendant would not authorize her
attorney to release the report to Plaintiff’s counsel.
Defendant wished to submit the report directly to the
Court without any opportunity for review by
Plaintiff’s counsel.
17.
Defendant did not produce the
neuropsychological evaluation report to Plaintiff’s
counsel as required by the April 27, 216 Order.
18.
The April 27, 2016 Order required
Defendant to disclose the name and address of the
provider who would be doing the evaluation to
Plaintiff’s counsel no later than May 15, 2016.
Although Defendant did disclose the name and
address of a provider to Plaintiff’s counsel by May 16,

73a
2016, the name and address disclosed to Plaintiff’s
counsel was not the provider who evaluated
Defendant and wrote the report that Defendant
sought to disclose to the Court at the August 4, 2016
hearing.
19.
When Defendant disclosed the name and
address of an evaluator to Plaintiff’s counsel on May
16, 2016, Defendant did not disclose that a
neuropsychological evaluation already had been
performed by another evaluator in April 2016.
20.
The Court and Plaintiff’s counsel were
unaware that a neuropsychological evaluation had
been done until the August 4, 2016 hearing.
21.
The Court believes that Defendant was
misleading to the Court and to Plaintiff’s counsel from
April 2016 through August 4, 2016 regarding the
status of the evaluation and, consequently, the
evidence available for and the issues to be decided at
the August 4, 2016 hearing.
22.
There was significant conflict between
the parties during their marriage, which culminated
in physical altercations between the parties on more
than one occasion. Defendant testified at length about
these altercations during the September 2015 trial
and described herself as a victim of domestic violence,
but Plaintiff introduced a recording into evidence at
the September 2015 in which Defendant can be heard
laughing and attempting to goad Plaintiff into a
physical altercation. Furthermore, Defendant’s
medical records (as introduced into evidence by

74a
Defendant and/or made available to Plaintiff’s counsel
for cross-examination purposes at the September 2015
trial) are inconsistent with her testimony about the
alleged altercations.
23.
During the parties’ marriage, Plaintiff
established strong relationships with several of the
parties’ neighbors. Plaintiff continues to be friends
with his former neighbors, who provide a support
network for Plaintiff and the children. After the
parties’ separation, while the children resided
primarily with Defendant, H. had a safety plan to go
to the neighbors if she needed any help.
24.
Defendant did not have a good
relationship with the parties’ neighbors and she did
not maintain friendships with others. The parties’
neighbors have experienced bizarre conversations
with Plaintiff, during which Plaintiff would claim, for
example, that someone had fired a gun into the parties’
house from outside or someone was moving things
around in their backyard at night or that Plaintiff had
given a valuable family heirloom to a neighbor. There
was not evidence, other than Defendant’s statements,
that these things had occurred.
25.
Defendant was obsessed with security
during the parties’ marriage. Plaintiff was not
permitted to touch the home security pad or to disable
the security system.
26.
Towards the end of the parties’ marriage,
Plaintiff found small cassette recorders that were

75a
hidden throughout the house. The cassettes contained
hours of recordings of Defendant talking to herself.
27.
From the date of separation through
September 2015, while the children resided primarily
with Defendant, there would be times when
Defendant was unable to get herself and/or the
children to appointments on time. Defendant mixed
up her appointments with Dr. Kuzyszyn-Jones, for
example, and the parties’ daughter missed a chorus
performance because Defendant got lost and did not
arrive on time for the child to participate.
28.
From the date of separation through
September 2015, while the children resided primarily
with Defendant, there was a least one physical
altercation between H. and Defendant. Defendant
admitted during her testimony that H. is physically
aggressive toward her and that Defendant sometimes
uses corporal punishment for H.
29.
On more than one occasion since the
parties’ separation, there have been struggles
between Defendant and H. as Defendant attempted to
gain access to H.’s bedroom and H. attempted to
prevent her mother from getting in, resulting in
damage to the door.
30.
From the date of separation through
September 2015, while the children resided primarily
with Defendant, Defendant would sometimes bring
strangers with her to visitation exchanges with
Plaintiff. These people were not known to Plaintiff or
the children, and at least one of these people behaved

76a
aggressively toward Plaintiff during an exchange.
During the exchange, Defendant would remain in the
vehicle while the stranger conducted the custodial
exchange.
31.
From September 2015 through August 4,
2016 hearing, while the children resided primarily
with Plaintiff, Defendant’s parents regularly would
travel from Georgia to be present during Defendant’s
custodial times with the children.
32.
In February of 2016, Defendant was
trespassed from B.’s preschool due to her
confrontational behavior with staff at the school.
Plaintiff adjusted his work schedule so that he could
pick up B. and conduct the custodial exchange once
Defendant was unable to pick up B. from school.
33.
In the summer of 2016, the children lived
primarily with Defendant as set out in the Temporary
Order. During that period of time, H. became
increasingly emotional and upset. H. texted her father
frequently and often was distraught during phone
calls with her father. On at least one occasion, H.
called her father, extremely distraught, very late at
night when she should have been asleep. Plaintiff
worked with H.’s counselor to support H. during this
time and arranged for H. to have text communication
with her counselor as needed.
34.
In the summer of 2016, Defendant moved
H. out of her bedroom into a more central location in
the house with limited privacy; and Defendant turned

77a
off the power to H.’s bedroom at least once. These
actions were very upsetting to H.
35.
Defendant testified at trial that H. calls
Defendant names like “psycho” and stays in her room
and is sad during her custodial time with Defendant.
Defendant acknowledges that H. argued with her
about staying primarily with Defendant for the
summer.
36.
According to Defendant’s testimony, in
the summer of 2016, H. claimed that Defendant’s
mother handled her roughly when H. did not do what
her grandmother asked. Defendant heard but did not
see this altercation.
37.
At the September 2015 trial, Defendant
testified that she was asked to stop bringing B. to a
toddler class because of his behavior during the class;
and Dr. Kzuzyszyn-Jones noted in Defendant’s
psychological evaluation report that Defendant had
difficulty managing B.’s behavior at her office.
Defendant admitted during her testimony at the
August 2016 hearing that B. is becoming more
difficult for her to handle.
38.
Defendant admitted that, at times, she
calls her father to assist her by telephone with
disciplining the children.
39.
Defendant attributes her difficulty in
parenting and disciplining the children to poor
parenting by Plaintiff.

78a
40.
In the summer of 2016, Defendant
removed B. from preschool, contrary to the school’s
recommendation for B.’s kindergarten readiness, and
refused to allow him to attend preschool during her
custodial time.
41.
Plaintiff continues to seek appropriate
ongoing treatment with a licensed mental health
provider for stress and anxiety, in compliance with the
Temporary Order.
42.
Plaintiff has remained steadily employed
at all times since the parties’ separation.
43.
Plaintiff maintains a loving, stable home
for the minor children and ensures that they get to
school and to their appointments, including regular
counseling appointments for H.
44.
Plaintiff has continued to share
information about the children with Defendant (such
as appointments and illnesses) while they have been
in his primary care.
45.
At the conclusion of the August 4, 2016.
hearing, the Court entered a Memorandum of
Judgment that provided for the children to remain in
Plaintiff’s sole physical custody pending further
orders of the Court.
46.
The children’s best interests would be
served by implementing the custody provisions set
forth in the decretal paragraphs below.

79a
Based upon the foregoing Findings of Fact, the
Court makes the following
CONCLUSIONS OF LAW
1.
This Court has personal and subject
matter jurisdiction to enter this Order.
2.
The children’s best interests would be
served by implementing the legal and physical
custody provisions set forth in the decretal
paragraphs below.
IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED as follows:
1.
Legal Custody, Plaintiff shall have sole
legal custody of the minor children.
Plaintiff shall keep Defendant informed of any
serious accident, illness, or injury affecting the
children (with “serious” defined as an incident
requiring medical care and/or prescription medication
and not day-to-day incidents that may require basic
first aid and/or OTC medication) and of any major
issues pertaining to the children’s health, welfare,
education and upbringing. Each party shall have
equal access to records and information concerning
the children, including but not limited to, medical,
dental, health, mental health, school and educational
records, and each party shall be entitled to
communicate directly with any health care or
educational professional rendering services to the
children. Plaintiff shall inform Defendant of any
diagnosis, prognosis, and any other information

80a
received from medical and/or mental health provider(s)
regarding the minor children. The children’s health,
medical, and other appointments shall be posted on
Our Family Wizard at least 48 hours in advance (or as
soon as possible once the appointment is scheduled, if
not 48 hours in advance). Defendant is not authorized
to attend appointments at which the children will be
physically present except as consented to in writing in
advance by Plaintiff.
2.
Physical Custody, The minor children
shall reside with Plaintiff. Plaintiff may permit
custodial time between the children and Defendant
within his sole discretion, taking into account the
recommendations of H.’s counselor as to frequency,
location, duration, and any other restrictions deemed
appropriate by the counselor for permitting visitation
between H. and Plaintiff.
3.
Defendant is entitled to speak with the
children by telephone for a reasonable duration,
taking into account the ages and wishes of the
children, twice per week (but not before school/work
on school/work days, except in the event of an
emergency). The children will have open telephone
access to both parties at all times. Both parents shall
be available to the other party in case of emergency
and shall promptly answer any calls or texts in case of
emergency.
4.
Each party shall communicate with the
other party in a courteous and cordial manner. Except
in the event of an emergency, all communications

81a
between the parties shall be conducted in writing via
Our Family Wizard and shall be limited to conveying
necessary information to the other party relating to
the minor children.
5.
Each party shall at all times encourage
and foster in the children sincere respect and affection
for both parents. Each party shall support and
encourage the minor children’s relationship with the
other party. Neither party shall speak negatively or
make disparaging remarks about the other party or
the other party’s family in the presence or hearing of
the minor children.
6.
Each party shall keep the other party
informed at all times of his or her home address
(mailing address and physical address), home land
line telephone number, mobile telephone number,
primary work address, work telephone number, and
email address.
7.
Each party shall participate in regular,
ongoing therapy/counseling with a licensed mental
health provider of his/her choosing. Each party shall
comply with all recommendations of his/her mental
health provider, including the use of prescribed
medications if deemed appropriate by that party’s
mental health provider. Each party shall sign
whatever release or other paperwork is necessary to
authorize his/her mental health provider to
communicate freely with the mental health provider
for the parties’ daughter.

82a
8.
The parties’ daughter, H., shall continue
in regular ongoing counseling with Dr. Dittmer.
Neither party may terminate H.’s counseling with Dr.
Dittmer except as recommended by Dr. Dittmer or
pursuant to subsequent order of this Court. The
parties shall comply with all recommendations from
H.’s provider. Except as required by law or as deemed
appropriate by the provider (within his/her sole
discretion), H.’s provider is not obligated to release
information to either party regarding services to H. or
any disclosures made by H. during the course of
treatment. Neither party shall delay, disrupt,
interfere with, or otherwise take any steps to
negatively impact the counseling process and/or the
therapeutic relationship between H. and her provider.
9.
Any and all law enforcement agencies
shall enforce the terms of this Order.
10.
Defendant shall not remove either child
from the State of North Carolina at any time without
express written consent in advance from Plaintiff.
This the 29th day of OCTOBER, 2016.
/s/_____________________________
District Court Judge Presiding

83a
APPENDIX E
AMENDED CHILD CUSTODY ORDER OF THE
WAKE COUNTY DISTRICT COURT
(March 6, 2017)
IN THE GENERAL COURT OF JUSTICE
DISTRICT COURT DIVISION
14 CVD 10295
Assigned Judge: DENNING
NORTH CAROLINA
WAKE COUNTY
___________________________

JOHN TYLER ROUTTEN,
Plaintiff,
v.
KELLY GEORGENE ROUTTEN,
Defendant.
THIS CAUSE came on for hearing on the
parties’ claims for permanent child custody before the
undersigned District Court Judge presiding over the
SEPTEMBER 21, 2015 Civil Domestic Session of
District Court, Wake County, North Carolina; and
IT APPEARING TO THE COURT that Plaintiff
was present and represented in this matter by Jill
Jackson of Tharrington Smith, LLP, in Raleigh, North
Carolina and Defendant was present and represented

84a
in this matter by Laura Brennan, of Raleigh, North
Carolina; and
THE COURT, after consideration of the
evidence and testimony presented during the four (4)
days of trial, determined that it was appropriate
under the circumstances for this Court to enter a
temporary custody order that determined the
custodial arrangements for the children pending
completion of a neuropsychological evaluation by
Defendant; and
THE COURT conducted a custody review in
chambers with counsel for the parties on April 5, 2016,
to determine the status of Defendant’s completion of
the neuropsychological evaluation; and
THE COURT entered an Order on April 27,
2016, that established more specific requirements for
Defendant’s completion of the neuropsychological
evaluation prior to a final hearing scheduled for
August 4, 2016; and
THE COURT conducted the final hearing on
the parties’ claims for permanent child custody on
August 4, 2016, at which time Plaintiff was present
and represented by Jill Jackson of Tharrington Smith,
LLP, and Defendant was present and represented by
Norman York, both parties testified before the Court;
and
THE COURT upon review of the pleadings and
other documents of record and after considering the
documents of record, evidence, testimony of witnesses,

85a
and arguments of the parties, hereby makes and
entered a Permanent Child Custody Order on
December 9, 2016; and
Defendant thereafter filed a Motion for a New
Trial (filed 12/16/2016), a motion for Relief from
Orders/Judgments (filed 12/19/2016), an Amended
Motion for New Trial (filed 2/20/2017) (referred to
collectively as “Defendant’s Motions”); and
THE COURT conducted a hearing on
Defendant’s Motions on March 1, 2017, at which time
Plaintiff was represented by Jill Jackson of
Tharrington Smith, LLP, and Defendant was present
and represented by Jeff Marshall of Marshall &
Taylor; and
THE COURT upon review of the pleadings and
other documents of record and after considering the
documents of record, evidence, testimony of witnesses
and arguments of the parties, hereby determines that
Defendant is entitled to entry of a new Order that
includes additional findings of fact and conclusions of
law; and
THE COURT hereby makes and enters the
following:
FINDINGS OF FACT
1.
Both parties are residents of Wake
County, North Carolina, and have been for more than
six (6) months preceding the filing of this action.

86a
2.
Plaintiff and Defendant were married to
each other on March 23, 2002.
3.
Plaintiff and Defendant separated from
each other on July 26, 2014. The parties are now
divorced.
4.
The parties are the parents of two
children, namely: H.B.R., born June 2, 2004 (age 12);
and B.C.R., born July 17, 2012 (age 4).
5.
The minor children have resided with
the parties in Wake County, North Carolina at all
times from their birth until the parties’ separation.
From the date of the parties’ through September 2015,
the children resided primarily with Defendant and
secondarily with Plaintiff in Wake County, North
Carolina. Since September 2015, the children have
resided primarily with Plaintiff and secondarily in
Wake County, North Carolina.
6.
During the four (4) day trial in
September 2015, the Court heard testimony from
Plaintiff, Defendant, Jennifer Ober, Jared Ober, Jerry
Baker, George Hurst, Connie Hurst, Grant Decker,
Natalie Panko, Carrie Brown, Stephanie Normand,
Dr. Mark Skeen, Dr. Katrina Kuzyszyn-Jones, and Dr.
Joanne deSupinski.
7.
During the August 4, 2016 hearing, the
Court heard testimony from Plaintiff and Defendant.
8.
Dr. Skeen and Dr. Kuzyszyn-Jones were
qualified by the Court to testify as expert witnesses.

87a
9.
Defendant has Multiple Sclerosis and is
experiencing impairment of her episodic memory,
working memory, and processing speed.
10.
During the September 2015 proceeding,
Dr. Kuzyszyn-Jones recommended that Defendant
undergo a neuropsychological evaluation.
11.
This Court entered an Order: Custody
and Child Support (“Temporary Order”) on December
21, 2015 that determined the custodial arrangements
for the children pending the completion by Defendant
of a neuropsychological evaluation.
12.
This Court conducted an in-chambers
custody review with counsel for the parties on April 5,
2016, to determine the status of Defendant’s
completion of the neuropsychological evaluation. On
April 27, 2016, the Court entered an Order that
established
more
specific
requirements
for
Defendant’s completion of the neuropsychological
evaluation prior to a final hearing scheduled for
August 4, 2016.
13.
Defendant filed a Notice of Appeal on
May 24, 2016. Defendant appealed only from the
Order entered by the Court on April 27, 2016 (but not
from the Temporary Order entered on December 21,
2015).
14.
Defendant’s appeal was dismissed by
this Court on August 2, 2016.
15.
During the pendency of the appeal,
various motions were filed by Defendant with the

88a
Court and with the North Carolina Court of Appeals
in which Defendant made representations regarding
the status of her neuropsychological examination.
Defendant’s representations, considered as a whole,
caused the Court and Plaintiff’s attorney to
understand that Defendant had not completed the
neuropsychological evaluation and did not intend to
do so, either because she could not afford to do so or
because she objected to doing so on privacy grounds.
16.
At the August 4, 2016 hearing,
Defendant’s counsel revealed that Defendant had, in
fact, submitted to a neuropsychological evaluation in
April 2016 but Defendant would not authorize her
attorney to release the report to Plaintiff’s counsel.
Defendant wished to submit the report directly to the
Court without any opportunity for review by
Plaintiff’s counsel.
17.
Defendant did not produce the
neuropsychological evaluation report to Plaintiff’s
counsel as required by the April 27, 2016 Order.
18.
The April 27, 2016 Order required
Defendant to disclose the name and address of the
provider who would be doing the evaluation to
Plaintiff’s counsel no later than May 15, 2016.
Although Defendant did disclose the name and
address of a provider to Plaintiff’s counsel by May 16,
2016, the name and address disclosed to Plaintiff’s
counsel was not the provider who evaluated
Defendant and wrote the report that Defendant

89a
sought to disclose to the Court at the August 4, 2016
hearing.
19.
When Defendant disclosed the name and
address of an evaluator to Plaintiff’s counsel on May
16, 2016, Defendant did not disclose that a
neuropsychological evaluation already had been
performed by another evaluator in April 2016.
20.
The Court and Plaintiff’s counsel were
unaware that a neuropsychological evaluation had
been done until the August 4, 2016 hearing.
21.
The Court believes that Defendant was
misleading to the Court and to Plaintiff’s counsel from
April 2016 through August 4, 2016 regarding the
status of the evaluation and, consequently, the
evidence available for and the issues to be decided at
the August 4, 2016 hearing.
22.
After the August 4, 2016 hearing but
prior to entry of the original Permanent Custody
Order on December 9, 2016, the Court received a
document by mail that purported to be the Evaluation
Report
resulting
from
the
April
2016
neuropsychological evaluation. This “Report” lists
more than ten (10) tests or inventories that
purportedly were performed on Defendant but no
results or analysis of Defendant’s performance on
these tests/inventories were included in the document.
23.
The Court provided a hard copy of the
Evaluation Report to Jill Jackson, Plaintiff’s attorney,
via hand delivery. The Court instructed Ms. Jackson

90a
to maintain the confidentiality of the Evaluation
Report and prohibited Ms. Jackson from disclosing the
Evaluation Report (or its contents) to Plaintiff or any
third party. Ms. Jackson has complied with these
instructions.
24.
There was significant conflict between
the parties during their marriage, which culminated
in physical altercations between the parties on more
than one occasion. Defendant testified at length about
these altercations during the September 2015 trial
and described herself as a victim of domestic violence,
but Plaintiff introduced a recoding into evidence at the
September 2015 in which Defendant can be heard
laughing and attempting to goad Plaintiff into a
physical altercation. There were two incidents in July
of 2014 (shortly before the parties separated) during
which Plaintiff attempted to retreat from Defendant
during an argument by locking himself in another
room but Defendant forced her way into the room.
Furthermore, Defendant’s medical records (as
introduced into evidence by Defendant and/or made
available to Plaintiff’s counsel for cross-examination
purposes at the September 2015 trial) are inconsistent
with her testimony about the alleged altercations.
25.
During the parties’ marriage, Plaintiff
established strong relationships with several of the
parties’ neighbors. Plaintiff continues to be friends
with his former neighbors, who provide a support
network for Plaintiff and the children. After the
parties’ separation, while the children resided

91a
primarily with Defendant, H. had a safety plan to go
to the neighbors if she needed any help.
26.
Defendant did not have a good
relationship with the parties’ neighbors and she did
not maintain friendships with others. The parties’
neighbors have experienced bizarre conversations
with Plaintiff, during which Plaintiff would claim, for
example, that someone had fired a gun into the parties’
house from outside or someone was moving things
around in their backyard at night or that Plaintiff had
given a valuable family heirloom to a neighbor. There
was not evidence, other thana Defendant’s statements,
that these things had occurred.
27.
The
psychological
evaluation
of
Defendant also supported the testimony of the
neighbors, the Defendant makes statements at times
that are outright bizarre and/or not grounded in
reality.
a.
For example, Defendant told Dr.
Kuzszyn-Jones during her psychological
evaluation that Plaintiff threw Defendant in
September 2012 after a hockey game and then
Defendant later woke up to find cotton candy
all over the bed. There is no evidence that this
incident ever occurred.
b.
As further example, Defendant
told
Dr.
Kuzszyn-Jones
during
her
psychological evaluation that she believes
Plaintiff was having an affair with a neighbor
and that she had CPI security video of two

92a
people having intercourse in the yard at the
marital residence (implying that it was
Plaintiff and the neighbor), but no such
evidence was introduced during any hearing in
this matter. There is no evidence that Plaintiff
conducted an affair with the neighbor (or
anyone).
28.
Defendant was obsessed with security
during the parties’ marriage. Plaintiff was not
permitted to touch the home security pad or disable
the security system.
29.
Towards the end of the parties’ marriage,
Plaintiff found small cassette recorders that were
hidden throughout the house. The cassettes contained
hours of recordings of Defendant talking to herself.
30.
From the date of separation through
September 2015, while the children resided primarily
with Defendant, there would be times when
Defendant was unable to get herself and/or the
children to appointments on time. For example,
Defendant struggled to complete the psychological
evaluation process with Dr. Kuzyszyn-Jones because
she would forget appointment dates or times, she lost
her keys while at the office, and she lsot her cellphone
while at the office. As another example, the parties’
daughter missed a chorus performance because
Defendant got lost and did not arrive on time for the
child to participate.
31.
From the date of separation through
September 2015, while the children resided primarily

93a
with Defendant, there was a least one physical
altercation between H. and Defendant. Defendant
admitted during her testimony that H. is physically
aggressive toward her and that Defendant sometimes
uses corporal punishment for H.
32.
On more than one occasion since the
parties’ separation, there have been struggles
between Defendant and H. as Defendant attempted to
gain access to H.’s bedroom and H. attempted to
prevent her mother from getting in, resulting in
damage to the door.
33.
From the date of separation through
September 2015, while the children resided primarily
with Defendant, Defendant would sometimes bring
strangers with her to visitation exchanges with
Plaintiff. These people were not known to Plaintiff or
the children, and at least one of these people behaved
aggressively toward Plaintiff during an exchange.
During the exchange, Defendant would remain in the
vehicle while the stranger conducted the custodial
exchange.
34.
From September 2015 through August 4,
2016 hearing, while the children resided primarily
with Plaintiff, Defendant’s parents regularly would
travel from Georgia to be present during Defendant’s
custodial times with the children.
35.
In February of 2016, Defendant was
trespassed from B.’s preschool due to her
confrontational behavior with staff at the school.
Plaintiff adjusted his work schedule so that he could

94a
pick up B. and conduct the custodial exchange once
Defendant was unable to pick up B. from school.
36.
In the summer of 2016, the children lived
primarily with Defendant as set out in the Temporary
Order. During that period of time, H. became
increasingly emotional and upset. H. texted her father
frequently and often was distraught during phone
calls with her father. On at least one occasion, H.
called her father, extremely distraught, very late at
night when she should have been asleep. Plaintiff
worked with H.’s counselor to support H. during this
time and arranged for H. to have text communication
with her counselor as needed.
37.
In the summer of 2016, Defendant moved
H. out of her bedroom into a more central location in
the house with limited privacy; and Defendant turned
off the power to H.’s bedroom at least once. These
actions were very upsetting to H.
38.
Defendant testified at trial that H. calls
Defendant names like “psycho” and stays in her room
and is sad during her custodial time with Defendant.
Defendant acknowledges that H. argued with her
about staying primarily with Defendant for the
summer.
39.
According to Defendant’s testimony, in
the summer of 2016, H. claimed that Defendant’s
mother handled her roughly when H. did not do what
her grandmother asked. Defendant heard but did not
see this altercation.

95a
40.
At the September 2015 trial, Defendant
testified that she was asked to stop bringing B. to a
toddler class because of his behavior during the class;
and Dr. Kzuzyszyn-Jones noted in Defendant’s
psychological evaluation report that Defendant had
trouble managing B.’s behavior at her office.
Defendant admitted during her testimony at the
August 2016 hearing that B. is becoming more
difficult for her to handle.
41.
Defendant admitted that, at times, she
calls her father to assist her by telephone with
disciplining the children.
42.
Defendant attributes her difficulty in
parenting and disciplining the children to poor
parenting by Plaintiff.
43.
In the summer of 2016, Defendant
removed B. from preschool, contrary to the school’s
recommendation for B.’s kindergarten readiness, and
refused to allow him to attend preschool during her
custodial time.
44.
Defendant lacks any insight into her own
behavior and the consequences of that behavior for the
children. Defendant accepts no responsibility for,
among other things, being trespassed from B.’s
preschool, her inability to control B.’s behavior,
physical altercations with H., her inappropriate
attempts to impose “discipline” on H., allowing her
mother (H.’s maternal grandmother) to engage in
physical altercations with H., and H.’s obvious
emotional distress during visitations with Defendant.

96a
45.
Defendant accepts no responsibility for
her conduct in misleading this Court and Plaintiff’s
attorney
regarding
the
status
of
the
neuropsychological evaluation, as evidenced by her
conduct at the August 2016 hearing.
46.
Since entry of the Permanent Child
Custody Order on December 9, 2016, this Court has
issued a Preliminary Injunction (Gatekeeper Order)
that prohibits Defendant from issuing subpoenas
without prior approval by the Court.
47.
Plaintiff continues to seek appropriate
ongoing treatment with a licensed mental health
provider for stress and anxiety, in compliance with the
Temporary Order.
48.
Plaintiff has remained steadily employed
at all times since the parties’ separation.
49.
Plaintiff maintains a loving, stable home
for the minor children and ensures that they get to
school and to their appointments, including regular
counseling appointments for H.
50.
Plaintiff has continued to share
information about the children with Defendant (such
as appointments and illnesses) while they have been
in his primary care.
51.
At the conclusion of the August 4, 2016.
hearing, the Court entered a Memorandum of
Judgment that provided for the children to remain in
Plaintiff’s sole physical custody pending further
orders of the Court.

97a
52.
It is not in the children’s best interests to
have visitation with Defendant. The children’s best
interests would be served by implementing the
custody provisions set forth in the decretal
paragraphs below.
Based upon the foregoing Findings of Fact, the
Court makes the following
CONCLUSIONS OF LAW
1.
This Court has personal and subject
matter jurisdiction to enter this Order.
2.
Pursuant to Rule 59, Defendant is
entitled to entry of a new Order with additional
findings of fact and conclusions of law as set out herein.
3.
It is not in the children’s best interests to
have visitation with Defendant.
4.
The children’s best interests would be
served by implementing the legal and physical
custody provisions set forth in the decretal
paragraphs below.
IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED as follows:
1.
Legal Custody, Plaintiff shall have sole
legal custody of the minor children. In exercising sole
legal custody, Plaintiff shall:
a.
keep Defendant informed of any
serious accident, illness, or injury affecting the
children (with “serious” defined as an incident

98a
requiring medical care and/or prescription
medication and not day-to-day incidents that
may require basic first aid and/or OTC
medication) and of any major issues pertaining
to the children’s health, welfare, education and
upbringing. Each party shall have equal access
to records and information concerning the
children, including but not limited to, medical,
dental, health, mental health, school and
educational records, and each party shall be
entitled to communicate directly with any
health care or educational professional
rendering services to the children.
b.
Plaintiff shall inform Defendant of
any diagnosis, prognosis, and any other
information received from medical and/or
mental health provider(s) regarding the minor
children. The children’s health, medical, and
other appointments shall be posted on Our
Family Wizard at least 48 hours in advance (or
as soon as possible once the appointment is
scheduled, if not 48 hours in advance).
Defendant is not authorized to attend
appointments at which the children will be
physically present except as consented to in
writing in advance by Plaintiff.
2.
Physical Custody, The minor children
shall reside with Plaintiff. Plaintiff may permit
custodial time between the children and Defendant
within his sole discretion, taking into account the
recommendations of H.’s counselor as to frequency,

99a
location, duration, and any other restrictions deemed
appropriate by the counselor for permitting visitation
between H. and Plaintiff.
3.
Defendant is entitled to speak with the
children by telephone for a reasonable duration,
taking into account the ages and wishes of the
children, twice per week (but not before school/work
on school/work days, except in the event of an
emergency). The children will have open telephone
access to both parties at all times. Both parents shall
be available to the other party in case of emergency
and shall promptly answer any calls or texts in case of
emergency.
4.
Each party shall communicate with the
other party in a courteous and cordial manner. Except
in the event of an emergency, all communications
between the parties shall be conducted in writing via
Our Family Wizard and shall be limited to conveying
necessary information to the other party relating to
the minor children.
5.
Each party shall at all times encourage
and foster in the children sincere respect and affection
for both parents. Each party shall support and
encourage the minor children’s relationship with the
other party. Neither party shall speak negatively or
make disparaging remarks about the other party or
the other party’s family in the presence or hearing of
the minor children.
6.
Each party shall keep the other party
informed at all times of his or her home address

100a
(mailing address and physical address), home land
line telephone number, mobile telephone number,
primary work address, work telephone number, and
email address.
7.
Each party shall participate in regular,
ongoing therapy/counseling with a licensed mental
health provider of his/her choosing. Each party shall
comply with all recommendations of his/her mental
health provider, including the use of prescribed
medications if deemed appropriate by that party’s
mental health provider. Each party shall sign
whatever release or other paperwork is necessary to
authorize his/her mental health provider to
communicate freely with the mental health provider
for the parties’ daughter.
8.
The parties’ daughter, H., shall continue
in regular ongoing counseling with Dr. Dittmer.
Neither party may terminate H.’s counseling with Dr.
Dittmer except as recommended by Dr. Dittmer or
pursuant to subsequent order of this Court. The
parties shall comply with all recommendations from
H.’s provider. Except as required by law or as deemed
appropriate by the provider (within his/her sole
discretion), H.’s provider is not obligated to release
information to either party regarding service to H. or
any disclosures made by H. during the course of
treatment. Neither party shall delay, disrupt,
interfere with, or otherwise take any steps to
negatively impact the counseling process and/or the
therapeutic relationship between H. and her provider.

101a
9.
Any and all law enforcement agencies
shall enforce the terms of this Order.
10.
Defendant shall not remove either child
from the State of North Carolina at any time without
express written consent in advance from Plaintiff.
This the 3rd day of MARCH, 2017.

/s/___________________________________
The Honorable Michael J. Denning
District Court Judge Presiding

102a
APPENDIX F
N.C. Gen. Stat. § 50-13.5
§ 50-13.5. Procedure in actions for custody or support
of minor children.
(a)
Procedure. - The procedure in actions for
custody and support of minor children shall be as in
civil actions, except as provided in this section and in
G.S. 50-19. In this G.S. 50-13.5 the words "custody
and support" shall be deemed to include custody or
support, or both.
(b)
Type of Action. - An action brought under the
provisions of this section may be maintained as
follows:
(1)
As a civil action.
(2)
Repealed by Session Laws 1979, c. 110, s. 12.
(3)
Joined with an action for annulment, or an
action for divorce, either absolute or from bed and
board, or an action for alimony without divorce.
(4)
As a cross action in an action for annulment,
or an action for divorce, either absolute or from bed
and board, or an action for alimony without divorce.
(5)
By motion in the cause in an action for
annulment, or an action for divorce, either absolute
or from bed and board, or an action for alimony
without divorce.
(6)
Upon the court's own motion in an action for
annulment, or an action for divorce, either absolute
or from bed and board, or an action for alimony
without divorce.

103a
(7)
In any of the foregoing the judge may issue an
order requiring that the body of the minor child be
brought before him.
(c)
Jurisdiction in Actions or Proceedings for
Child Support and Child Custody. (1)
The jurisdiction of the courts of this State to
enter orders providing for the support of a minor child
shall be as in actions or proceedings for the payment
of money or the transfer of property.
(2)
The courts of this State shall have jurisdiction
to enter orders providing for the custody of a minor
child under the provisions of G.S. 50A-201, 50A-202,
and 50A-204.
(3)
to (6) Repealed by Session Laws 1979, c. 110,
s. 12.
(d)
Service of Process; Notice; Interlocutory
Orders. (1)
Service of process in civil actions for the
custody of minor children shall be as in other civil
actions. Motions for support of a minor child in a
pending action may be made on 10 days notice to the
other parties and compliance with G.S. 50-13.5(e).
Motions for custody of a minor child in a pending
action may be made on 10 days notice to the other
parties and after compliance with G.S. 50A-205.
(2)
If the circumstances of the case render it
appropriate, upon gaining jurisdiction of the minor
child the court may enter orders for the temporary
custody and support of the child, pending the service
of process or notice as herein provided.
(3)
A temporary order for custody which changes
the living arrangements of a child or changes custody
shall not be entered ex parte and prior to service of

104a
process or notice, unless the court finds that the child
is exposed to a substantial risk of bodily injury or
sexual abuse or that there is a substantial risk that
the child may be abducted or removed from the State
of North Carolina for the purpose of evading the
jurisdiction of North Carolina courts. A temporary
custody order that requires a law enforcement officer
to take physical custody of a minor child shall be
accompanied by a warrant to take physical custody of
a minor child as set forth in G.S. 50A-311.
(e)
Notice to Additional Persons in Support
Actions and Proceedings; Intervention. (1)
The parents of the minor child whose
addresses are reasonably ascertainable; any person,
agency, organization or institution having actual care,
control, or custody of a minor child; and any person,
agency, organization or institution required by court
order to provide for the support of a minor child,
either in whole or in part, not named as parties and
served with process in an action or proceeding for the
support of such child, shall be given notice by the
party raising the issue of support.
(2)
The notice herein required shall be in the
manner provided by the Rules of Civil Procedure for
the service of notices in actions. Such notice shall
advise the person to be notified of the name of the
child, the names of the parties to the action or
proceeding, the court in which the action or
proceeding was instituted, and the date thereof.
(3)
In the discretion of the court, failure of such
service of notice shall not affect the validity of any
order or judgment entered in such action or
proceeding.

105a
(4)
Any person required to be given notice as
herein provided may intervene in an action or
proceeding for support of a minor child by filing in apt
time notice of appearance or other appropriate
pleadings.
(f)
Venue. - An action or proceeding in the courts
of this State for custody and support of a minor child
may be maintained in the county where the child
resides or is physically present or in a county where
a parent resides, except as hereinafter provided. If an
action for annulment, for divorce, either absolute or
from bed and board, or for alimony without divorce
has been previously instituted in this State, until
there has been a final judgment in such case, any
action or proceeding for custody and support of the
minor children of the marriage shall be joined with
such action or be by motion in the cause in such
action. If an action or proceeding for the custody and
support of a minor child has been instituted and an
action for annulment or for divorce, either absolute or
from bed and board, or for alimony without divorce is
subsequently instituted in the same or another
county, the court having jurisdiction of the prior
action or proceeding may, in its discretion direct that
the action or proceeding for custody and support of a
minor child be consolidated with such subsequent
action, and in the event consolidation is ordered,
shall determine in which court such consolidated
action or proceeding shall be heard.
(g)
Custody and Support Irrespective of Parents'
Rights Inter Partes. - Orders for custody and support
of minor children may be entered when the matter is
before the court as provided by this section,

106a
irrespective of the rights of the wife and the husband
as between themselves in an action for annulment or
an action for divorce, either absolute or from bed and
board, or an action for alimony without divorce.
(h)
Court Having Jurisdiction. - When a district
court having jurisdiction of the matter shall have
been established, actions or proceedings for custody
and support of minor children shall be heard without
a jury by the judge of such district court, and may be
heard at any time.
(i)
District Court; Denial of Parental Visitation
Right; Written Finding of Fact. - In any case in which
an award of child custody is made in a district court,
the trial judge, prior to denying a parent the right of
reasonable visitation, shall make a written finding of
fact that the parent being denied visitation rights is
an unfit person to visit the child or that such
visitation rights are not in the best interest of the
child.
(j)
Custody and Visitation Rights of
Grandparents. - In any action in which the custody of
a minor child has been determined, upon a motion in
the cause and a showing of changed circumstances
pursuant to G.S. 50-13.7, the grandparents of the
child are entitled to such custody or visitation rights
as the court, in its discretion, deems appropriate. As
used in this subsection, "grandparent" includes a
biological grandparent of a child adopted by a
stepparent or a relative of the child where a
substantial relationship exists between the
grandparent and the child. Under no circumstances
shall a biological grandparent of a child adopted by
adoptive parents, neither of whom is related to the

107a
child and where parental rights of both biological
parents have been terminated, be entitled to
visitation rights.

108a
APPENDIX G
Listing of States Applying the Judicial Best
Interests Rule
1. Alaska
“In summary, the record shows that the
superior court weighed the extensive
testimony of many witnesses and
ultimately found, based on all the
evidence, that the children's best
interests would be served by awarding
Bahma-Ebertz sole custody of Alicia and
Mitchell and shared custody of Zackery.”
Ebertz v. Ebertz, 113 P.3d 643, 651
(Alaska 2005)
2. Connecticut
“[T]he legal rights of no one, even a
parent, may militate against the court’s
determination of the best interests of the
child.” Sullivan v. Bonafonte, 172 Conn.
612, 614 (1977).
3. Delaware
“The interests in the child of the father
and mother are never of paramount
importance in the decision with respect
to custody or visitation.” In Re One Minor
Child, 295 A. 2d 727, 728 (Del, 1972).
4. Iowa
“[W]e hold that the acknowledged father
of an illegitimate child has a right to visit
the child upon his showing that it would
be in the best interests of the child.” Gay

109a

5. Maine

v. Cairns, 298 NW2d 313, 315 (Iowa
1980).

“[A]bsent a showing that the justice gave
undue weight to the lack of a marriage
relationship between the mother and
father of the children in his balancing
assessment of the children's best
interests, the fact that the justice gave it
some consideration does not constitute
legal error.” Dustin v. Belanger, 429 A.
2d 212, 213 (Me. 1981).
6. Massachusetts
“The plaintiff has a right to visitation
with the children if he is their father and
if visitation is in their best interests.”
Normand v. Barkei, 385 Mass. 851, 852,
434 N.E.2d 631, 632 (1982).
7. Michigan
“[W]hen determining visitation rights, as
with child custody matters, the best
interests of the child involved are of
paramount importance.” Cooper v.
Cooper, 93 Mich. App. 220, 228, 285
N.W.2d 819, 822 (1979).
8. Nebraska
“[V]irtually all states which have
considered the issue have granted the
father a right to reasonable visitation if
it is in the best interests of the child.” Cox
v. Hendricks, 208 Neb. 23, 28, 302
N.W.2d 35, 38 (1981).

110a
9. North Carolina
“[T]he protected right is irrelevant in a
custody proceeding between two natural
parents.” Routten v. Routten, 372 N.C.
571, 577, 843 S.E.2d 154, 159 (2020).
10. South Carolina
“The privilege of visitation must yield to
the good of the child and may be denied
or limited where the best interests of the
child will be served thereby.” Porter v.
Porter, 246 S.C. 332, 340, 143 S.E.2d 619,
624 (1965).
11. Virginia
“In any child custody decision, the
lodestar for the court is the best interest
of the child, and the due process rights of
the parents must be tempered by this
guiding principle.” Haase v. Haase, 20
Va. App. 671, 681, 460 S.E.2d 585, 589
(1995) (citations omitted).
12. Washington
“Although the privilege of visitation
enjoyed by a parent is an important one,
it is not of itself an absolute right, nor is
it the paramount consideration; it must
always yield to what is best for the
welfare of the child.” Borenback v.
Borenback, 34 Wash.2d 172, 178, 208
P.2d 635, 638 (1949).

111a
APPENDIX H
Listing of States Applying the Actual Harm
Rule
1. Alabama
“[A] father has a legal right to reasonable
access to his bastard child, where he
contributes to its support, and there is no
showing that such right would be
detrimental to the child’s best interests.”
Bagwell v. Powell, 99 So. 2d 195, 197 (Ala.
1957).
2. Arkansas
“[B]efore a trial court restricts the noncustodial parent's visitation, it must
make specific factual findings [of harm]
based on sound evidence in the record.”
Taylor v. Taylor, 353 Ark. 69, 83, 110
S.W.3d 731, 739 (2003).
3. Illinois
“[T]he General Assembly has established
a presumption that it is in the best
interests of the child to have reasonable
visitation with a noncustodial parent,
and the burden is on the custodial parent
to prove that visitation would seriously
endanger the child.” Parentage of J.W. v.
Wills, 2013 IL 114817 ¶ 43, 990 N.E.2d
698, 707-708.
4. Kentucky
“[U[nder KRS 403.320(3), a court can
modify timesharing if it is in the best

112a
interests of the child, but it can only
order
a
‘less
than
reasonable’
timesharing arrangement if the child’s
health
is
seriously
endangered.”
Layman v. Bohanon, 599 S.W.3d 423,
429 (Ky. 2020).
5. Maryland
a. “Visitation rights, however, are not to be
denied even to an errant parent unless
the best interests of the child would be
endangered by such contact.” Boswell v.
Boswell, 352 Md. 204, 226, 721 A.2d 662,
670 (1998) (quoting Roberts v. Roberts,
35 Md.App. 497, 507, 371 A.2d 689, 694
(1977)).
6. Minnesota
“[V]isitation is to be regarded as a
parental
right
essential
to
the
continuance and maintenance of a childto-parent relationship between the child
and noncustodial parent, and that a
denial of this right shall be based on
persuasive evidence that visitation will
not serve the best interests of the child.”
Griffin v. Van Griffin, 267 N.W.2d 733,
735 (Minn. 1978).
7. Mississippi
“Absent any evidence that visitation
with Michael and his lover would be
harmful to the children, the chancellor
erred and abused his discretion in
placing such a restriction on Michael's

113a
visitation.” Dunn v. Dunn, 609 So. 2d
1277, 1286 (Miss. 1992).
8. Missouri
“[T]he court shall not restrict a parent's
visitation rights unless it finds that the
visitation would endanger the child's
physical health or impair his emotional
development” Turley v. Turley, 5 S.W.3d
162, 164 (Mo. 1999) (quoting Mo. Rev.
Stat. § 452.400.2 (2019)).
9. Montana
“[T]he court shall not restrict a parent's
visitation rights unless it finds that the
visitation would endanger seriously the
child's physical, mental, moral, or
emotional health.” In re Marriage of
Robbins, 219 Mont. 130, 135, 711 P. 2d
1347, 1350 (1985) (quoting Mont. Code §
40-4-217(3) (1984).
10. Nevada
“[T]he decree or order must tie the child's
best interest, as informed by specific,
relevant findings respecting the NRS
125.480(4) and any other relevant factors,
to the custody determination made.”
Davis v. Ewalefo, 131 Nev. 445, 451, 352
P.3d 1139, 1143 (2015).
11. New Mexico
“[O]nly
when visitation by
the
noncustodial parent "interferes with the
child's
emotional
well-being
or
significantly disrupts the child's day to
day environment, should it be limited.”

114a
Lopez v. Lopez, 1981-NMSC-138, ¶ 9, 97
N.M. 332, 335, 639 P.2d 1186, 1189.
12. North Dakota
a. “[V]isitation between a non-custodial
parent and a child is presumed to be in
the child's best interests and that it is not
merely a privilege of the non-custodial
parent, but a right of the child… Thus, a
court should only withhold visitation
when it is likely to endanger the child's
physical
or
emotional
health.”
Hendrickson v. Hendrickson, 2000 N.D. 1,
¶ 21, 603 NW 2d 896, 903 (2000).
13. Oregon
“[O]rdinarily, a parent's privilege of
reasonable access may be regarded as a
right, and will not be forfeited unless the
welfare of the child will be seriously
affected by its exercise.” Kellog v. Kellog,
187 Or. 617, 622, 213 P.2d 172, 175
(1949).
14. Rhode Island
“Visitation rights are to be strongly
favored and will be denied only in an
extreme situation in which the children's
physical, mental, or moral health would
be endangered by contact with the
parent in question.” Africano v. Castelli,
837 A. 2d 721, 728 (R.I. 2003).
15. South Dakota
“[W]here the evidence establishes that
exercise of visitation will be harmful to
the welfare of the children; in this event,

115a
the right of the noncustodial parent to
visit with his children can be limited, or,
under extreme circumstances, prohibited
altogether.” Pieper v. Pieper, 2013 S.D.
98, ¶ 15, 841 N.W.2d 781, 786 (quoting
Roberts v. Roberts, 22 Ohio App.3d 127,
489 N.E.2d 1067, 1069 (1985)).
16. Tennessee
“[T]he right of visitation ... may be
limited, or eliminated, if there is definite
evidence that to permit ... the right
would jeopardize the child, in either a
physical or moral sense.” Suttles v.
Suttles, 748 S.W.2d 427, 429 (Tenn.
1988).
17. Vermont
“Absent a showing by clear and
convincing evidence that any visitation
would be detrimental to daughter's best
interests [] the court erred by halting all
contact between father and daughter.”
DeSantis v. Pegues, 2011 VT 114, ¶ 35,
190 Vt. 457, 469, 35 A.3d 152, 162 (2011).

116a
APPENDIX I
Listing of States Applying the Unfitness Rule
1. The District of Columbia
“When custody of children has been
awarded to one parent, the parent
deprived of their custody has the right of
visitation with the children and ought
not to be denied that right unless by his
conduct he has forfeited his right, or
unless the exercise of the right would
injuriously affect the welfare of the
children.” Jackson v. Jackson, 461 A.2d
459, 460 (D.C. 1983) (quoting Surrey v.
Surrey, 144 A.2d 421, 423 (D.C.Mun.
App. 1958)).
2. Georgia
“The parent having the right of custody
and control of a minor child has the right
to make these determinations, and a
court has no authority to interfere unless
it first appears that the parent has
forfeited his rights in a manner
recognized by law.” Davis v. Davis, 212
Ga. 217, 221, 91 S.E.2d 487, 490 (1956).
3. Idaho
“It is only under extraordinary
circumstances that a parent should be
denied the right of visitations, even
though the parent is guilty of marital
misconduct.” Wilson v. Wilson, 73 Idaho
326, 328, 252 P.2d 197, 198 (1953).

117a
4. Indiana
“Indiana has long recognized that the
right of parents to visit their children is
a precious privilege that should be
enjoyed by noncustodial parents, and
thus a noncustodial parent is "generally
entitled to reasonable visitation rights.”
Perkinson v. Perkinson, 989 N.E.2d 758,
762 (Ind. 2013) (citing Duncan v.
Duncan, 843 N.E.2d 966, 969 (Ind.Ct.
App.2006) and Ind.Code § 31-17-4-1
(2012)).
5. Kansas
“[A] fit and proper parent is entitled to
have access to and at reasonable times
visit and be visited by a child who is in
the custody of the other parent.” State ex
rel. Wingard v. Sill, 223 Kan. 661, 665,
576 P.2d 620, 624 (1978).
6. Louisiana
“The presumption in favor of visitation
can only be overcome by conclusive
evidence that the parent has forfeited his
right of access by his conduct or that
exercise of the right would injuriously
affect the child's welfare.” Maxwell v.
LeBlanc, 434 So. 2d 375, 379 (La. 1983).
7. New Hampshire
“To deny all visitation rights to the child
and the plaintiff, as the mother requests,
is fair to neither the child nor the father,
unless there are unusual circumstances,
the existence of which is a matter for

118a
determination by the trial court. Absent
such circumstances, the right of the child
and the father to a continuing
relationship should not depend upon
legislative enactment. It is a right that
has its foundation among those ‘natural,
essential, and inherent rights’ that are
recognized in N.H. Const., pt. I, art. 2.”
Locke v. Ladd, 119 N.H. 136, 140, 399
A.2d 962, 965 (1979).
8. New York
“[T]he rebuttable presumption in favor of
visitation applies when the parent
seeking visitation is incarcerated. A
parent who is in prison does not forfeit
his or her visitation rights by being
incarcerated.” In re Granger v. Misercola,
21 N.Y.3d 86, 91, 990 N.E.2d 110 (2013).
9. Oklahoma
“A parent possesses certain natural
rights with respect to his child whose
custody is given to the other parent. The
right to visit the child is one. This
natural right should not be denied him
unless the evidence conclusively shows
that his conduct is of such nature that he
has forfeited the right of access to the
child.” In Re McMenamin, 310 P 2d 381,
383 (Okla. 1957).
10. Utah
“The general policy of the law is that a
parent will be denied visitation rights
only under extraordinary circumstances.

119a
This Court is reluctant to deny all
visitation rights, unless the child's
welfare is jeopardized thereby.” Slade v.
Dennis, 594 P.2d 898, 901 (Utah 1979).
11. West Virginia
“The right of a parent to have the custody
of his or her child is founded on natural
law and, while not absolute, such right
will not be taken away unless the parent
has committed an act or is guilty of an
omission which proves his or her
unfitness.” Hammack v. Wise, 158 W. Va.
343, 348, 211 S.E.2d 118, 121 (1975).

